<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
   AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies for inclusion in the 
record. The submitted materials relate to the fiscal year 2012 
budget request for programs within the subcommittee's 
jurisdiction.]
 Prepared Statement of the American Commodity Distribution Association
    On behalf of the American Commodity Distribution Association 
(ACDA), I respectfully submit this statement regarding the budget 
request of the Food and Nutrition Service for inclusion in the 
subcommittee's official record. ACDA members appreciate the 
subcommittee's support for these vital programs.
    We urge the subcommittee to maintain administrative expense funding 
for The Emergency Food Assistance Program (TEFAP) at $74.5 million; to 
make TEFAP food purchase dollars available for 2 fiscal years; to 
approve the administration's budget request for the Commodity 
Supplemental Food Program (CSFP) and provide an increase of $5 million 
to begin operations in six additional States approved by the U.S. 
Department of Agriculture (USDA); and to evaluate alternative 
approaches for the Department of Defense (DOD) Fresh Program.
    ACDA is a nonprofit professional trade association, dedicated to 
the growth and improvement of USDA Commodity Food Distribution Program. 
ACDA members include:
  --State agencies that distribute USDA-purchased commodity foods;
  --agricultural organizations;
  --industry;
  --associate members;
  --recipient agencies, such as schools and soup kitchens; and
  --allied organizations, such as anti-hunger groups.
  --ACDA members are responsible for distributing more than 1.5 billion 
        pounds of USDA-purchased commodity foods annually through 
        programs such as the National School Lunch Program, TEFAP, 
        Summer Food Service Program (SFSP), CSFP, Charitable 
        Institution Program, and Food Distribution Program on Indian 
        Reservations (FDPIR).
  the emergency food assistance program administrative funds at $74.5 
     million, as provided for fiscal year 2009 and fiscal year 2010
    We urge the subcommittee to maintain TEFAP administrative funds at 
$74.5 million, as provided for fiscal year 2009 and fiscal year 2010 
when American Recovery and Reinvestment Act (ARRA) funds were added to 
the regular appropriation.
    Food banks around the Nation are in great need. The number of 
Americans who are turning to food banks for assistance continues to 
increase. The Congress appropriated $49.5 million for TEFAP 
administrative funds in both fiscal year 2009 and 2010, and through 
ARRA, supplemented these amounts with an additional $25 million. These 
resources have been used responsibly, and are sincerely appreciated.
    Donations to food banks are declining as many individuals and 
businesses no longer have the ability to be as supportive as they had 
been in the past. ACDA members tell us that unless TEFAP expense funds 
are restored to the fiscal year 2009-2010 level, they will have to 
accept less food to reduce shipping/warehousing expenses, and will 
likely have to cut reimbursement to local distributors. These 
reimbursements are key to maintaining distribution sites, especially in 
rural distribution sites.
    The lower funding level available in fiscal year 2011 has already 
had a negative impact. In Wisconsin, this year's lack of administrative 
funding to compensate for the increased quantities of bonus commodities 
required a mid-year cut in support to Wisconsin's 16 Emergency Feeding 
Organizations administrative budgets.
    We recognize that States have had the ability to convert a portion 
of their food funds to administrative funds, and have done so. We 
appreciate this flexibility, but must respectfully point out that even 
if this flexibility is continued, TEFAP operators will experience a 
significant reduction in available administrative expense funds that 
jeopardizes their ability to provide essential food assistance to needy 
Americans.
    Section 4201 of the Food, Conservation, and Energy Act of 2008 
(Public Law 110-246) increased the authorization for TEFAP 
administrative expense funds from $60 million to $100 million, 
recognizing the need for increased expense funds to responsibly manage 
increased TEFAP food supplies. Our request for $74.5 million, is well 
within the amounts authorized.

MAKE THE EMERGENCY FOOD ASSISTANCE PROGRAM FOOD DOLLARS AVAILABLE FOR 2 
                              FISCAL YEARS

    We urge the subcommittee to make TEFAP food dollars available for 2 
fiscal years, as was done under ARRA.
    While the agencies of USDA work closely with food banks to provide 
as much food for distribution as possible, there are occasions when 
food dollars are at jeopardy through no fault of recipient agencies. If 
food orders are canceled by either USDA or vendors for any reason near 
the end of the Federal fiscal year, State agencies must either purchase 
whatever items might be available through USDA, or lose these end-of-
year balances.
    At the end of fiscal year 2009 Florida had an ARRA TEFAP balance of 
$1.6 million on September 28, 2009, due to the cancellation of cheese 
orders that day. Florida's regular TEFAP balance was $218,023. On 
September 8, 2009, the TEFAP entitlement balance in New York was just 
more than $12,000. On September 28, it was $415,000 due to the 
significant cancellations and deletions of truckloads of commodity 
foods. On July 28, 2009, New York's ARRA balance was $11,000. On 
September 28, it was $481,000. Other ACDA members have told us of 
similar experiences in their States.
    Food banks are working diligently to use every $1 responsibly 
because every $1 is needed. When ARRA was passed, TEFAP food dollars 
were allowed to be carried over from fiscal year 2009 to fiscal year 
2010. This procedure helped food bank operators to make responsible 
decisions and to take maximum advantage of available resources.
    We urge the subcommittee to make TEFAP food dollars available for 2 
years, and urge the Secretary of Agriculture to allow those States who 
made responsible efforts to use their TEFAP food dollars to roll over 
to the next fiscal year balances unexpended through no fault of the 
TEFAP operator.

          FUNDING FOR THE COMMODITY SUPPLEMENTAL FOOD PROGRAM

    ACDA supports the fiscal year 2012 budget request of $176,788,000 
for CSFP, but urges the subcommittee provide an additional $5 million 
to begin CSFP operations in six States that now have USDA-approved 
State plans--Connecticut, Hawaii, Idaho, Maryland, Massachusetts, and 
Rhode Island. This additional funding would make CSFP available in 45 
States. CSFP now serves primarily elderly individuals, many of whom are 
homebound. States currently operating CSFP requested 137,276 additional 
caseload slots for the current program year, clearly showing the need 
for this program.

AMERICAN COMMODITY DISTRIBUTION ASSOCIATION REQUESTS THE EVALUATION OF 
                  ALTERNATIVE APPROACHES FOR DOD FRESH

    There is broad consensus that improving the nutritional well-being 
of Americans, particularly children, includes increasing fruit and 
vegetable consumption, including fresh items. USDA's commodity program 
is constrained in its ability to distribute fresh foods.
    However, in the 1990s, the Department developed a partner 
relationship with DOD to utilize some of the Federal commodity 
entitlement for school meal programs to allow school districts to 
purchase through the DOD distribution system. This program, DOD Fresh, 
was very successful.
    Changes in the DOD procurement and distribution program which have 
outsourced these procurement activities have had a deleterious effect 
on the school program. This change has also created a situation where 
each school that participates must pay a fee to access the DOD secure 
ordering system.
    The Secretary has worked to ameliorate these fees, approximately $3 
million per year, in the short term, but this is a temporary fix. We 
believe that there may be an alternate approach that will restore the 
many benefits of the original DOD Fresh Program.
    We once again ask the subcommittee to direct the Secretary to 
evaluate alternative approaches for replacing DOD Fresh including, but 
not limited to, developing an analog program through the Agricultural 
Marketing Service, and report back to the subcommittee on these 
options.
    We look forward to continuing to partner with you and USDA in the 
delivery of these needed services.
                                 ______
                                 
       Prepared Statement of the American Farm Bureau Federation
    The American Farm Bureau Federation (AFBF) has identified three 
priorities for emphasis and funding for U.S. Department of Agriculture 
(USDA) programs in the fiscal year 2012 agriculture spending bill. They 
are:
  --programs that expand export markets for agriculture;
  --programs that promote broadband expansion; and
  --programs that further develop renewable energy.
    AFBF strongly opposes any cuts to funding for the farm safety net. 
Such cuts would break a 5-year commitment made to America's farmers and 
ranchers in the 2008 farm bill. Producers have made business decisions 
based on this contract with the Government, and to break these 
commitments would severely impact the rural economy. The farm bill 
discussion should occur when the House and Senate Agriculture 
Committees begin hearings and draft legislation for the next farm bill.

       PROGRAMS THAT EXPAND INTERNATIONAL MARKETS FOR AGRICULTURE

    In order to take full advantage of the market opportunities offered 
through trade agreements, AFBF supports funding at authorized levels 
for:
  --The Foreign Agricultural Service (FAS) to maintain services that 
        expand agricultural export markets. We urge continued support 
        for the Office of the Secretary for trade negotiations and 
        biotechnology resources.
  --The Market Access Program, the Foreign Market Development Program, 
        the Emerging Markets Program, and the Technical Assistance for 
        Specialty Crops Program that are effective export development 
        and expansion programs. These programs have resulted in 
        increased demand for U.S. agriculture and food products abroad 
        and should be fully funded.
  --Public Law 480 programs which serve as the primary means by which 
        the United States provides needed foreign food assistance 
        through the purchase of U.S. commodities. In addition to 
        providing short-term humanitarian assistance, the program helps 
        to develop long-term commercial export markets.
    We support full funding for the following Animal Plant Health 
Inspection Service (APHIS) programs:
  --The APHIS Plant Protection and Quarantine personnel and facilities, 
        especially the plant inspection stations, which are necessary 
        to protect U.S. agriculture from costly pest problems that 
        enter the United States from foreign lands.
  --APHIS trade issues resolution and management activities that are 
        essential for an effective response when other countries raise 
        pest and disease concerns (i.e., sanitary and phytosanitary 
        measures) to prohibit the entry of American products.
  --APHIS-Biotechnology Regulatory Services (BRS) that play an 
        important role in overseeing the permit, notification, and 
        deregulation process for products of biotechnology. BRS 
        personnel and activities are essential to ensure public 
        confidence and international acceptance of biotechnology 
        products.
    Funding for the U.S. Codex Office is essential to developing 
harmonized international standards for food and food products. Codex 
standards provide uniformity in food rules and regulations by allowing 
countries to adopt similar levels of safety protection for consumers 
while concurrently facilitating transparency in food trade.

               PROGRAMS THAT PROMOTE BROADBAND EXPANSION

    The lack of high-speed, modern Internet service in rural America 
prevents rural Americans' access to educational, medical, and business 
opportunities, and hampers the economic growth of rural America. We 
support funding for loans and grants administered by the Rural 
Utilities Service to increase rural broadband capacity and 
telecommunications services and to fund the Distance Learning and 
Telemedicine Program.

             PROGRAMS THAT FURTHER DEVELOP RENEWABLE ENERGY

    AFBF supports funding for the following programs, which help 
farmers and ranchers contribute to our Nation's goal of energy 
independence and a cleaner environment.
    We support funding the Biomass Crop Assistance Program (BCAP) at 
levels authorized by the 2008 farm bill. BCAP provides vital financial 
assistance to farmers who produce and transport eligible biomass 
feedstocks and helps growers meet the capital-intensive costs of 
transitioning to producing new crops and delivering them to market.
    Additionally, we support increasing funding for the Renewable 
Energy for America Program (REAP). REAP offers grants, guaranteed 
loans, and combination grant/guaranteed loans for agricultural 
producers to purchase renewable energy systems and energy efficiency 
improvements, as well as offers funding for energy audits and 
feasibility studies.
    AFBF has identified five other areas of importance for USDA 
programs in the fiscal year 2012 agriculture spending bill. They are:
  --programs that promote conservation;
  --programs that strengthen rural communities;
  --programs that enhance and improve food safety and protection;
  --programs that promote animal health; and
  --research priorities.

                   PROGRAMS THAT PROMOTE CONSERVATION

    AFBF supports full funding for working lands programs. In this time 
of fiscal constraint, it is imperative to invest in programs that 
contribute to the world's production of food and fiber. Farmers and 
ranchers have made great strides in conserving our natural resources 
and believe that these gains can continue through working lands 
programs.

               PROGRAMS THAT STRENGTHEN RURAL COMMUNITIES

    Rural entrepreneurs often lack access to the capital and technical 
assistance necessary to start new businesses. These new ventures are 
needed for rural communities to sustain themselves and contribute to 
our national economy. AFBF supports funding for USDA Rural Development 
(RD) programs that foster new business development in rural 
communities. These programs include the Value-Added Agricultural 
Producer Grants, Rural Innovation Initiative, Rural Microentrepreneur 
Assistance Program, and Business and Industry Direct and Guaranteed 
Loans.
    Many rural communities lack access to the tax base necessary to 
provide modern community facilities like nursing homes, fire stations, 
and food distribution centers. AFBF supports funding for the 
construction, enlargement, or improvement of essential community 
facilities in rural areas and small towns through RD's Community 
Facility Direct and Guaranteed Loans. The use of Community Facility 
Guaranteed Loans encourages synergy between USDA, private lenders, and 
local communities.
    The Revolving Fund Program grant helps communities acquire safe 
drinking water and sanitary, environmentally sound waste disposal 
facilities. With dependable water facilities, rural communities can 
attract families and businesses that will invest in the community and 
improve the quality of life for all residents. We support funding for 
this important program.
    AFBF supports funding for the Resource Conservation and Development 
Program. This vital program supports economic development and resource 
protection. This program, in cooperation with rural development 
councils, helps local volunteers create new businesses, form 
cooperatives, develop marketing and agri-tourism activities, improve 
water quality and flood control, improve leadership and other business 
skills, and implement renewable energy projects.
    AFBF supports continued funding for the Beginning Farmer and 
Rancher Development Program, which provides farmers information, 
skills, and tools needed to make informed decisions for their 
operations, with the goal of enhancing the success of beginning farmers 
and ranchers.
    AFBF supports full funding for Agriculture in the Classroom, a 
national grassroots program coordinated by the USDA. This worthy 
program helps students gain a greater awareness of the role of 
agriculture in the economy and society, so that they may become 
citizens who support wise agricultural policies.

      PROGRAMS THAT ENHANCE AND IMPROVE FOOD SAFETY AND PROTECTION

    The continued safety of food is crucial to consumers, as well as 
production agriculture and the rest of the food industry. Sufficient, 
reliable Federal funding for the Government's food and feed safety and 
protection functions is vital to this effort. Agencies responsible for 
food safety must have the necessary resources to reasonably establish 
safety, especially Food and Drug Administration (FDA) inspections of 
imported food. While food imports have increased more than 50 percent 
in the past 5 years, the number of FDA food import inspectors has 
fallen about 20 percent.
    We recommend that adequate funding for food protection at the FDA 
and Food Safety Inspection Service (FSIS) be directed to the following 
priorities:
  --increased education and training of inspectors;
  --additional science-based inspection, targeted according to risk;
  --effective inspection of imported food and feed products;
  --research and development of scientifically based rapid testing 
        procedures and tools;
  --accurate and timely responses to outbreaks that identify 
        contaminated products, remove them from the market, and 
        minimize disruption to producers; and
  --indemnification for producers who suffer marketing losses due to 
        inaccurate Government-advised recalls or warnings.
    We also support authorized funding of $2.5 million for the Food 
Animal Residue Avoidance Databank (FARAD). FARAD aids veterinarians in 
establishing science-based recommendations for drug withdrawal 
intervals, critical for both food safety and animal health. No other 
Government program provides or duplicates the food safety information 
FARAD provides to the public. Without the critical FARAD program, 
producers may be forced to euthanize animals or dispose of meat, milk, 
and eggs due to the lack of withdrawal information.
    AFBF opposes the administration's request for new user fees for 
inspection activities. Food safety is for the public good and as such, 
it is a justified use of public funds.

                  PROGRAMS THAT PROMOTE ANIMAL HEALTH

    Tracking infected and exposed animals is critical to protecting 
livestock and poultry health through streamlined surveillance and 
response. Disease traceability helps to reduce the number of animal 
deaths and preserve animal health when outbreaks occur. A traceability 
system can limit the number of animal owners impacted by an outbreak 
and reduce the economic strain on owners and affected communities, as 
well as protect public health.
    We support a voluntary animal disease tracking system, but are 
concerned about the share of implementation costs that could burden 
producers if APHIS is not adequately funded. Providing APHIS Federal 
funding of $15 million this year, and strong oversight on the 
expenditure of funds, is essential to generate the greatest possible 
benefit for animal health and the livestock industry.
    We support $5 million for the Veterinary Medicine Loan Repayment 
Program (VMLRP) administered by the National Institute for Food and 
Agriculture. VMLRP provides veterinary school graduates student-loan 
repayment if they agree to work in underserved areas. VMLRP 
veterinarians ensure animal health and welfare, while protecting the 
Nation's food supply.
    AFBF supports $155.5 million for the FDA Center for Veterinary 
Medicine (CVM). CVM oversees the safety of animal drugs, feeds, and 
biotechnology-derived plant products used as or in animal feed, as well 
as biotechnology-derived products used to improve the health or 
productivity of animals (including fish).

                          RESEARCH PRIORITIES

    Research funding is critical to the future of American agriculture. 
The United Nations' Food and Agriculture Organization predicts that 
farmers will have to produce 70 percent more food by 2050 to feed an 
additional 2.3 billion people around the globe. This production 
challenge likely will have to be met using fewer resources and less 
land than is available today. America's farmers are the most efficient 
in the world, but without a commitment to further agricultural research 
and technological advancement, even America's farmers could be hard-
pressed to meet these challenges. We believe that agricultural research 
is vital to the lives of our citizens and the economic well-being of 
our Nation, particularly research focused on meeting the growing 
challenges of production agriculture.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    On behalf of the American Indian Higher Education Consortium 
(AIHEC) and the 32 Tribal Colleges and Universities (TCUs) that compose 
the list of 1994 Institutions, thank you for this opportunity to 
outline our needs and concerns for fiscal year 2012.
    This statement is presented in three parts:
  --a summary of our fiscal year 2012 funding recommendations;
  --a brief background on TCUs; and
  --an outline of the 1994 Institutions' plan for using our land grant 
        programs to fulfill the agricultural potential of American 
        Indian communities, and to ensure that American Indians have 
        the skills and support needed to maximize the economic 
        potential of their resources.

                          SUMMARY OF REQUESTS

    We respectfully request the following for fiscal year 2012 for our 
land grant programs established within the USDA National Institute of 
Food and Agriculture (NIFA) and the Rural Development mission area. In 
NIFA, we request:
  --$5,321,000 for the 1994 Institutions' competitive Extension grants 
        program;
  --$1,805,000 for the 1994 Institutions' competitive Research Grants 
        program;
  --$3,676,000 for the Higher Education Equity Grants;
  --an $11,880,000 payment into the Native American Endowment fund; and
  --in the Rural Development's Rural Community Advancement Program 
        (RCAP), that funding for the TCU Essential Community Facilities 
        Grants program be retained at $3,972,000, the same level that 
        has been in place since fiscal year 2008, to help the 1994 
        Institutions to address the critical facilities and 
        infrastructure needs that advance their capacity to participate 
        fully as land grant partners.

             BACKGROUND ON TRIBAL COLLEGES AND UNIVERSITIES

    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
nearly 150 years after enactment of the first land grant legislation, 
the 1994 Institutions, as much as any other higher education 
institutions, exemplify the original intent of the land grant 
legislation, as they are truly community-based institutions.
    The Tribal College Movement was launched in 1968 with the 
establishment of Dine College, serving the Navajo Nation. Rapid growth 
of the TCU Movement soon followed, primarily in the Northern Plains 
region. In 1972, six tribally charted colleges established the AIHEC to 
provide a support network for member institutions. Today, AIHEC 
represents 36 TCUs, operating 76 campuses--32 of which compose the 
current list of 1994 Institutions located in 12 States. Each year, 
collectively, tribal colleges serve more than 65,000 American Indians 
from well more than 250 federally recognized tribes through academic 
and community education programs.
    The 1994 Institutions are accredited by independent, regional 
accreditation agencies and like all institutions of higher education, 
must undergo stringent performance reviews to retain their 
accreditation status. TCUs serve as community centers by providing 
libraries, tribal archives, career centers, economic development and 
business centers, public meeting places, and child and elder care 
centers. Despite their many obligations, functions, and notable 
achievements, TCUs remain the most poorly funded institutions of higher 
education in this country. The vast majority of the 1994 Institutions 
is located on Federal trust territory. Therefore, States have no 
obligation, and in most cases, provide no funding to TCUs. In fact, 
most States do not even provide funds to our institutions for the non-
Indian State residents attending our colleges, leaving the TCUs to 
assume the per student operational costs for non-Indian students 
enrolled in our institutions, accounting for approximately 21 percent 
of their student population. This is a significant financial commitment 
on the part of TCUs, as they are small, developing institutions and 
cannot, unlike their State land grant partners, benefit from economies 
of scale--where the cost per student to operate an institution is 
reduced by the comparatively large size of the student body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation, and relocation--many reservation 
residents live in conditions of poverty comparable to those found in 
Third World nations. Through the efforts of TCUs, American Indian 
communities are availing themselves of resources needed to foster 
responsible, productive, and self-reliant citizens. It is essential 
that we continue to invest in the human resources that will help open 
new avenues to economic development, specifically through enhancing the 
1994 Institutions' land grant programs, and securing adequate access to 
information technology.

   1994 LAND GRANT PROGRAMS--AMBITIOUS EFFORTS TO ECONOMIC POTENTIAL

    In the past, due to lack of expertise and training, millions of 
acres on Indian reservations lay fallow, under-used, or had been 
developed using methods that caused irreparable damage. The Equity in 
Educational Land Grant Status Act of 1994 is addressing this situation 
and is our hope for the continued improvement of our reservation lands. 
Our current land grant programs remain small, yet very important to us. 
It is essential that American Indians explore and adopt new and 
evolving technologies for managing our lands. With increased capacity 
and program funding, we will become even more fundamental contributors 
to the agricultural base of the Nation and the world.
Competitive Extension Grants Programs
    The 1994 Institutions' extension programs strengthen communities 
through outreach programs designed to bolster economic development; 
community resources; family and youth development; natural resources 
development; and agriculture; as well as health and nutrition education 
and awareness. Without adequate funding the 1994 Institutions' ability 
to maintain existing programs and to respond to the many emerging 
issues, such as food safety and homeland security, especially on border 
reservations, is severely limited. Increased funding is needed to 
support these vital programs designed to address the inadequate 
extension services that have been provided to Indian reservations by 
their respective State programs. Funding for the 1994 Land Grant 
Extension programs is extremely modest. The 1994 Institutions have 
applied their resourcefulness for making the most of every dollar they 
have at their disposal by leveraging funds to maximize their programs 
whenever possible. Two examples of effective 1994 Extension programs 
include:
  --Extension activities at the College of Menominee Nation (Wisconsin) 
        strengthen the sustainable economic development potential of 
        the Menominee, Stockbridge-Munsee, Oneida, and Potawatomi 
        Reservations and surrounding communities by increasing distance 
        education capacity, conducting needs assessment studies, 
        providing workshops and training sessions, and offering 
        strategic planning assistance.
  --The Agriculture & Natural Resources Outreach Education Extension 
        Program at Oglala Lakota College (South Dakota), which is 
        located in one of the poorest counties in the Nation, utilizes 
        education to promote the environmentally sound used of 
        agriculture and natural resources by Lakota people. The program 
        coordinates activities between the college's Agriculture and 
        Natural Resources department, reservation schools, other tribal 
        departments, South Dakota State University, and county 
        extension programs. Specific issues addressed by the program 
        include poverty, isolation, health, cultural dissonance, and 
        land-use practices by Lakota landowners.
    To continue and expand highly successful programs at 1994 
Institutions, we request that the subcommittee support the President's 
fiscal year 2012 budget request for this competitive grants program and 
appropriate $5,321,000 to sustain the growth and further success of 
these essential community-based extension programs.
1994 Competitive Research Program
    As the 1994 Institutions enter into partnerships with 1862/1890 
land grant institutions through collaborative research projects, 
impressive efforts to address economic development through natural 
resource management have emerged. The 1994 Research Grants program 
illustrates an ideal combination of Federal resources and TCU-State 
institutional expertise, with the overall impact being far greater than 
the sum of its parts. We recognize the severe budget constraints under 
which the Congress is currently functioning. The $1,805,000 
appropriated in fiscal year 2010 is, by any measure, inadequate to 
develop capacity and conduct necessary research at our institutions. 
The 1994 Research Grants program is vital to ensuring that TCUs may 
finally be recognized as full partners in the Nation's land grant 
system. Currently, many of our institutions are conducting applied 
research, yet finding the resources to continue this research to meet 
their communities' needs is a constant challenge. This research 
authority opens the door to funding opportunities to maintain and 
expand the vital research projects begun at the 1994 Institutions, but 
only if adequate funds are secured and sustained. A total research 
appropriation of $1,805,000, for which all 32 of the 1994 Institutions 
compete, is hugely insufficient. Priority issue areas currently being 
studied at the 1994 Institutions include:
  --sustainable agriculture and forestry;
  --biotechnology and bioprocessing;
  --agribusiness management and marketing;
  --plant propagation, including native plant preservation for 
        medicinal and economic purposes;
  --animal breeding;
  --aquaculture;
  --human nutrition (including health, obesity, and diabetes); and
  --family, community, and rural development.
    For example, the Standing Rock Sioux Reservation, home to Sitting 
Bull College and located in North and South Dakota, is often 
characterized by high unemployment and health concerns. The college is 
conducting a research project to develop a natural beef enterprise on 
the reservation that will maximize use of existing natural resources, 
allow American Indian students to be actively involved in research and 
to produce a healthier agricultural product for the community. This 
project combines expertise from Sitting Bull College, North Dakota 
State University, and the USDA-ARS Northern Great Plains Research 
Laboratory.
    We request that the subcommittee continue to fund this program at a 
minimum of $1,805,000.

1994 Institutions' Educational Equity Grant Program
    This program is designed to assist 1994 Institutions with academic 
programs. Through the modest appropriations first made available in 
fiscal year 2001, the 1994 Institutions have developed and implemented 
courses and programs in natural resource management; environmental 
sciences; horticulture; forestry; and food science and nutrition. This 
last category is helping to address the epidemic rates of diabetes and 
cardiovascular disease that plague American Indian reservations. We 
request that the subcommittee support the President's fiscal year 2012 
budget by appropriating $3,676,000 to allow the 1994 Institutions to 
build upon their course offerings and the successful activities that 
have been established.

Native American Endowment Fund
    Endowment installments that are paid into the 1994 Institutions' 
account remain with the U.S. Treasury. Only the annual interest yield, 
less the USDA's administrative fee, is distributed to the 1994 
Institutions. The latest annual interest yield for the 1994 
Institutions' endowment was $4,266,794 and after USDA-NIFA claimed its 
standard 4-percent administrative fee, $4,096,122 was distributed among 
the eligible 32 TCU Land Grant Institutions by statutory formula. Once 
again, the administrative fee paid to USDA-NIFA to simply make the 
funds available for draw down by the eligible 1994 Institutions was 
higher than the amount paid to 72 percent of 1994 Institutions.
    Endowment payments appropriated increase the size of the corpus 
held by the U.S. Treasury and thereby increase the base on which the 
annual interest yield is determined. These additional funds would 
continue to support faculty and staff positions and program needs 
within 1994 agriculture and natural resources departments, as well as 
to help address the critical and very expensive facilities needs at 
these institutions. For the latest endowment interest distribution, the 
median interest payment to 1994 Institutions was $95,894, which is 
clearly not sufficient to address curriculum development and 
instruction delivery, not to mention the need to address the ongoing 
facilities and infrastructure projects at these institutions. In order 
for the 1994 Institutions to become full partners in the Nation's land-
grant system, we need the facilities and infrastructure necessary to 
fully engage in education and research programs vital to the future 
health and well being of our reservation communities.
    We respectfully request that the subcommittee again appropriate 
$11,880,000 for the fiscal year 2012 endowment payment. Additionally, 
we strongly urge the subcommittee to review the USDA-NIFA 
administrative fee charged and consider directing the department to 
reduce said fee for the Tribal College Endowment program so that more 
of these already limited interest funds can be utilized by the 1994 
Institutions to conduct essential community-based programs.

Tribal Colleges and Universities Essential Community Facilities Program 
        (Rural Development)
    The President's fiscal year 2012 budget request recommends 
eliminating the TCU Essential Community Facilities Grant program. The 
administration has stated that the TCUs' grant program should be 
eliminated because tribal colleges are eligible to participate in other 
programs offered in the USDA's Community Facilities Loan and Grant 
Programs (CFLGP). However, eligibility does not portend the level of 
success the TCUs might have in securing their much-needed grant 
dollars. Before the TCU-specific grant was established, only three of 
the 1994 Institutions ever received any funding under CFLGP; in other 
words, less than 10 percent of the eligible TCUs were successful in 
securing a grant. Additionally, grant opportunities under CFLGP require 
non-Federal matching funds at a minimum of 25 percent, which it has 
been determined that many of the tribal colleges cannot meet. By 
contrast, in fiscal year 2001 when the TCU-specific program was 
launched, 22 TCU Land Grant Institutions or almost 70 percent of the 
1994 Institutions received grant awards.
    We strongly urge the subcommittee to reject the proposal to 
eliminate this critical program and to continue to appropriate a 
minimum of $3,972,000 each year for the next 5 fiscal years to afford 
the 1994 Institutions the means to aggressively address critical 
facilities and infrastructure needs, thereby allowing them to better 
serve their students and their respective communities.

                               CONCLUSION

    The 1994 Institutions have proven to be efficient and effective 
vehicles for bringing educational opportunities to American Indians and 
the promise of self-sufficiency to some of this Nation's poorest and 
most underserved regions. The modest Federal investment in the 1994 
Institutions has already paid great dividends in terms of increased 
employment, access to higher education, and economic development. 
Continuation of this investment makes sound moral and fiscal sense. 
American Indian reservation communities are second to none in their 
potential for benefiting from effective land grant programs and, as 
earlier stated, no institutions better exemplify the original intent of 
the land grant concept than the 1994 Institutions.
    We appreciate your support of the 1994 Institutions and recognition 
of their role in the Nation's land grant system. We ask you to renew 
your commitment to help move our students and communities toward self-
sufficiency and respectfully request your continued support and full 
consideration of our fiscal year 2012 appropriations requests.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) appreciates the 
opportunity to submit this statement outlining our fiscal year 2012 
funding priorities within the jurisdiction of the Agriculture, Rural 
Development, Food and Drug Administration and Related Agencies 
Subcommittee. We support increased funding for farm bill title IX 
programs, and $308 million for the Commodity Futures Trading Commission 
(CFTC).
    APPA is the national service organization representing the 
interests of more than 2,000 municipal and other State and locally 
owned utilities in 49 States (all but Hawaii). Public power utilities 
deliver electricity to one of every seven electricity consumers 
(approximately 46 million people), serving some of the Nation's largest 
cities. However, the vast majority of APPA's members serve communities 
with populations of 10,000 people or less.

              DEPARTMENT OF AGRICULTURE: TITLE IX PROGRAMS

    APPA supports full funding for programs authorized in title IX of 
the 2008 farm bill for energy efficiency, renewable energy and 
biofuels. APPA is extremely pleased that the President's budget 
provides an additional $36.8 million in addition to the $70 million in 
discretionary funding for the Rural Energy for America Program (REAP). 
In addition, we request the full authorized level of $5 million for the 
Rural Energy Self-Sufficiency Program, and $5 million for the Community 
Wood Energy Program for fiscal year 2012.

                  COMMODITY FUTURES TRADING COMMISSION

    APPA supports the President's budget request of $308 million for 
CFTC, an 82-percent increase more than fiscal year 2011. As CFTC 
continues to implement the Dodd-Frank Wall Street Reform and Consumer 
Protection Act of 2010, they will struggle to do so in a timely manner 
without the proper staffing levels and technology necessary to complete 
rule-makings and implementation. Given the direct effect the rule-
makings will have on public power utilities and consumers, APPA is 
supportive of giving the CFTC the resources it needs to complete the 
rule-makings quickly and thoroughly.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB) we 
submit this statement for the official record in support of funding for 
agricultural research by the U.S. Department of Agriculture (USDA). 
ASPB supports the requested level for USDA's National Institute of Food 
and Agriculture (NIFA) in fiscal year 2012, specifically funding the 
Agriculture and Food Research Initiative (AFRI) at the requested level 
of $325 million. However, ASPB does not support the proposed decrease 
of $109 million to the Agricultural Research Service (ARS), and would 
ask that funding for ARS be sustained.
    This testimony highlights the importance of biology, particularly 
plant biology, as the Nation seeks to address vital issues including a 
sustainable food supply, energy security, and protecting our 
environment. We would like to thank the subcommittee for its 
consideration of this testimony and for recognizing that its support of 
agricultural research is an important investment in America's future in 
this difficult fiscal environment.

    FOOD, FUEL, ENVIRONMENT, AND HEALTH: PLANT BIOLOGY RESEARCH AND 
                            AMERICA'S FUTURE

    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of basic biological principles that underpin improvements in the health 
and nutrition of all Americans. In fact, the 2009 National Research 
Council report, ``A New Biology for the 21st Century,'' placed plant 
biology at the center of urgent priorities in food, health, and the 
environment. For example, one of the challenges outlined in the report 
is to generate food plants that can adapt and grow sustainably in 
changing environments, which will require enhanced understanding of 
plant growth mechanisms, genetically informed plant breeding, and the 
advancement of plant genomics.
    Plant biology is at the center of numerous scientific breakthroughs 
in the increasingly interdisciplinary world of alternative energy 
research. For example, interfaces among plant biology, engineering, 
chemistry, and physics represent critical frontiers in both basic 
biofuels research and bioenergy production. Similarly, with the 
increase in plant genome sequencing and functional genomics, the 
interface of plant biology and computer science is essential to our 
understanding of complex biological systems ranging from single cells 
to entire ecosystems.
    Despite the fact that plant biology research--the kind of research 
funded by USDA--underpins so many vital practical considerations for 
our country, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
broader impacts on society and on our economy. Failure to sustain 
investment in scientific research jeopardizes the Nation's ability to 
maintain U.S. competitiveness in agriculture.

                            RECOMMENDATIONS

    Because of our membership's extensive expertise, ASPB is in an 
excellent position to articulate the Nation's plant science priorities 
as they relate to agriculture. Our recommendations are as follows:
  --It is ASPB's hope that USDA will have an elevated role to play as 
        part of the expanding Federal research landscape. USDA supports 
        research that is intended to provide a foundation for creating 
        sustainable food and new energy supplies; however, much higher 
        investment in competitive funding is needed if the Nation is to 
        continue to make ground-breaking discoveries and accelerate 
        progress toward addressing urgent national priorities. ASPB 
        encourages the appropriation of the requested level of $325 
        million in fiscal year 2012 for AFRI, which although far short 
        of the authorized level of $700 million, is sensitive to 
        today's fiscal environment.
  --ARS provides vital research to serve USDA's mission and objectives 
        and the Nation's agricultural research needs. As USDA begins to 
        transform its extramural research programs through NIFA, ASPB 
        asks that the parallel reorganization of the agency's 
        intramural research programs around the five core challenges 
        identified by the USDA be carried out with due care and 
        diligence. Indeed, ASPB supports sustained funding for ARS and 
        does not support the President's proposed cut of $109 million 
        to ARS in fiscal year 2012.
  --USDA has focused attention in several key priority areas including 
        childhood obesity, climate change, global food security, food 
        safety, and sustainable bioenergy. While ASPB appreciates the 
        need for such strategic focus, ASPB also emphasizes the 
        importance of robust support for AFRI's Foundational Program as 
        scientific research supported by this program provides a basis 
        for outcomes across a wide spectrum, often leading to 
        groundbreaking developments that cannot be anticipated in 
        advance.
  --ASPB recognizes the importance of competitive grants in fostering 
        creativity and enabling the research community to take 
        advantage of new opportunities for discovery and innovation. 
        With few research funding streams available, there will be 
        increased pressure on an already limited competitive grants 
        budget. Therefore, ASPB encourages that any funds eliminated in 
        congressionally directed spending be applied to the competitive 
        grants offered as part of AFRI.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce as the demographics of the 
        U.S. workforce change. For example, there is a clear need for 
        additional scientists in the areas of interdisciplinary energy 
        research and plant breeding. ASPB applauds the creation of the 
        NIFA Fellows program. However, given the expected need for 
        additional scientists and engineers who are well-grounded in 
        agriculture research and development activities, ASPB calls for 
        targeted funding of specific programs (e.g., training grants 
        and fellowships) to provide this needed workforce over the next 
        10 years and to adequately prepare these individuals for 
        careers in the agricultural research of the future.
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. However, if crops are to 
        be used to their full potential, considerable effort must be 
        expended to improve the understanding of their basic biology 
        and development, as well as their agronomic performance. 
        Therefore, ASPB calls for additional funding that would be 
        targeted to efforts to increase the utility and agronomic 
        performance of bioenergy crops.
  --With NIFA now in place, USDA is in a strong position to cultivate 
        and expand interagency relationships (as well as relationships 
        with private philanthropies) to take on bolder new initiatives 
        to address grand challenges related to food, energy, the 
        environment, and health. ASPB also appreciates the need to 
        focus resources in key priority areas. However, ASPB emphasizes 
        continued focus on individual grantees, in addition to group 
        awards and larger multi-institution partnerships. Truly 
        paradigm shifting discoveries cannot be predicted through 
        collaborative efforts alone, and thus, there is a need to 
        maintain a broad, diverse, and robust research agenda.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute

    We would like to preface this testimony by recognizing major steps 
the U.S. Department of Agriculture's (USDA's) Animal and Plant Health 
Inspection Service (APHIS) has taken recently to improve its 
performance. In February, based on an investigation into possible 
violations of the Animal Welfare Act (AWA) undertaken by Animal Care 
(AC), APHIS, and the Office of Inspector General (OIG), random source 
class B dealers Floyd and Susan Martin (doing business as Chestnut 
Grove Kennel in Pennsylvania) were indicted on charges of conspiracy, 
aggravated identity theft, mail fraud, and making false statements. In 
March, three individuals in Tennessee were indicted for conspiring to 
violate the Horse Protection Act (HPA) by soring horses, transporting 
sored horses, and falsifying paperwork. Also, in March, AC unveiled its 
new Animal Care Information System search engine. This new system will 
give the public access to key documents, such as information about 
licensees and registrants, inspections reports, and annual reports. 
This is an important step toward greater transparency and 
accountability.
    The Congress' support for needed funding for AC, OIG, and 
Investigative and Enforcement Services (IES) has made enforcement 
improvements possible, and we respectfully request its continued 
support for these programs.

  USDA/ANIMAL AND PLANT HEALTH INSPECTION SERVICE/ANIMAL CARE/ANIMAL 
                        WELFARE ACT ENFORCEMENT

Animal Welfare Institute Request: Support Administration's Request for 
        $30 Million
    Over the past decade, the subcommittee has responded to the urgent 
need for increased funding for the AC program to improve its 
inspections of nearly 16,000 sites, including animal dealers, 
commercial breeding facilities, laboratories, zoos, circuses, and 
airlines, to ensure compliance with AWA standards. AC now has 130 
inspectors (with nine vacancies), and during fiscal year 2010, they 
conducted 14,003 inspections, including required annual visits to all 
registered research institutions that alone house more than 1 million 
animals (excluding birds, rats, and mice). Moreover, AC inspectors are 
engaged in follow-up with licensees who are regarded as problems 
because of the nature and frequency of their violations.
    This budget request of $30 million provides a minimal increase over 
fiscal year 2011 needed to sustain the progress that has been made.

ANIMAL AND PLANT HEALTH INSPECTION SERVICE/ANIMAL CARE/HORSE PROTECTION 
                            ACT ENFORCEMENT

Animal Welfare Institute Request: Support Administration's Request for 
        $891,000
    The goal of HPA, passed in 1970, is to end the cruel practice of 
soring, by which unscrupulous owners and/or trainers, primarily of 
Tennessee Walking Horses, intentionally inflict pain on the legs and 
hooves of horses, through the application of chemical and mechanical 
irritants, to produce an exaggerated gait. In 2008, the American 
Association of Equine Practitioners condemned soring as ``one of the 
most significant welfare issues faced by the equine industry.'' Three 
Girl Scouts bravely documented the brutality of this crime in their 
video ``See it Through My Eyes'' (available at www.youtube.com/
watch?v=kqFeYu1CrjU).
    Throughout its history, however, the law has been openly flouted 
and inadequate funding has hampered enforcement. USDA inspectors are 
able to attend a mere fraction of Tennessee Walking Horse shows--
between 6-14 percent. Consequently, there is continued reliance on an 
industry-run system of certified Horse Industry Organization inspection 
programs that utilize designated qualified persons (DQPs), usually 
industry insiders with a history of looking the other way. Reliance on 
DQPs has been an abysmal failure. Statistics clearly indicate that the 
presence of USDA inspectors at shows results in a far higher rate of 
noted violations than occurs when DQPs are present. The greater the 
likelihood of a USDA inspection, the greater the deterrent effect on 
those who routinely sore their horses. Enforcement should not be 
entrusted to individuals with a stake in the status quo.
    Given the problems as outlined above and in separate, more detailed 
fiscal year 2012 testimony signed by the Animal Welfare Institute and 
many other groups, it is clear that USDA cannot make progress in this 
area with current funding levels. We ask that the Congress appropriate 
the $891,000 for HPA enforcement as provided in the administration's 
budget.

     ANIMAL AND PLANT HEALTH INSPECTION SERVICE/INVESTIGATIVE AND 
                          ENFORCEMENT SERVICES

Animal Welfare Institute Request: $17,275,000
    IES handles investigations related to enforcement of the laws and 
regulations for APHIS' programs, which involves collection of evidence; 
both civil and criminal investigations; and investigations carried out 
in conjunction with Federal, State, and local enforcement agencies. It 
is actively involved in the two high-profile cases noted at the start 
of this testimony. In addition, IES, in collaboration with USDA's 
Office of the General Counsel, handles other types of enforcement 
actions including stipulations and formal administrative proceedings. 
We respectfully request a $17.275 million appropriation for IES to 
enable the Service to fulfill its full range of responsibilities, 
particularly its increasing HPA and AWA investigatory demands.

  AGRICULTURAL RESEARCH SERVICE/NATIONAL AGRICULTURAL LIBRARY/ANIMAL 
                       WELFARE INFORMATION CENTER

Animal Welfare Institute Request: $1,978,400
    We very much appreciate the subcommittee's continuing support for 
the Animal Welfare Information Center (AWIC). AWIC's services are 
vitally important to the Nation's biomedical research enterprise, as 
well as other regulated entities, because they facilitate compliance 
with specific requirements of the Federal animal welfare regulations 
and policies governing animal-related research. It proves its worth 
time and time again.
    AWIC was established in 1986 in response to a mandate in the 
Improved Standards for Laboratory Animals amendment to AWA. The center 
serves as a clearinghouse, training center, and education resource for 
those involved in the use of animals for research, testing, and 
teaching, as well as other entities covered by AWA. It provides 
training and compiles, distributes, and posts on its Web site 
information resources from the scientific literature to assist 
researchers who use animals. The subjects covered include husbandry, 
handling, and care of animals; personnel training; animal behavior; 
alternatives; improved methodologies; environmental enrichment; and 
pain control via anesthesia and analgesia and other methods. It also 
serves as a resource for the wider scientific and agricultural 
communities by providing access to material on zoonotic diseases such 
as avian influenza, transmissible spongiform encephalopathies, 
tuberculosis, West Nile virus, foot and mouth disease, the H1N1 virus, 
and others. Its activities contribute significantly to science-based 
decisionmaking in animal care.
    In fiscal year 2010, staff conducted 13 sessions of AWIC's 
workshop, ``Meeting the Information Requirements of the Animal Welfare 
Act'' (evaluations of which are overwhelmingly positive, with 
participants indicating a high degree of new information acquisition). 
In April 2010 in Kansas City, Missouri, AWIC and AC collaborated on a 
workshop for AC inspectors to help them better understand the 
alternatives requirement of AWA.
    The AWIC Web site (http://awic.nal.usda.gov/) is one of the most 
accessed sites at the National Agricultural Library (NAL), with more 
than 4,322,000 page views during fiscal year 2010. Many improvements to 
the Web site have been made in the past year, including increased 
timeliness and accessibility through a Twitter account and several 
blogs. Currently, 274 full text documents are available on the Web site 
and 24 new ones were added in fiscal year 2010. Already completed or in 
process for fiscal year 2011 are documents on anesthesia and analgesia 
for animals, swine as biomedical models, reducing animal numbers in 
research, review of enforcement data, environmental enrichment for 
nonhuman primates, cryopreservation of animal embryos, a Google map of 
State and local animal control agencies throughout the United States 
and issues of the AWIC newsletter. Making this information available in 
a timely fashion urgently requires additional staff.
    The need and demand for AWIC's services continue to outstrip its 
resources. We write in support of an appropriation of $1,978,400, which 
is urgently needed to fund, in addition to current salaries and other 
expenses, AWIC's services and its ongoing efforts to improve their 
delivery, including but not limited to the following:
  --$300,000.--Add two full-time equivalents to the professional staff.
  --$100,000.--Develop Web-based training modules, including 
        interactive modules, in order to provide online delivery of 
        training opportunities and expand the reach of the program.
  --$50,000.--Present workshops for research personnel, in 
        collaboration with AC. The workshops must be free of charge to 
        the institutions in order to encourage attendance.
  --$20,500.--Internet services.
  --$10,000.--AWIC staff training.
  --$15,000.--To fund an internship program that would provide 
        opportunities for postgraduate students (including 
        veterinarians) to work on special projects, such as creating 
        specialized information resources on animal (especially 
        zoonotic) diseases.
  --$200,000.--Resume acquisition of veterinary publications that NAL 
        discontinued several years ago, and increase the pace of 
        indexing all such publications.
  --$259,000.--Overhead to the Agricultural Research Service and NAL.
  --$50,000.--Meet congressional mandate to digitize more materials; in 
        particular, scanning historically relevant materials dating 
        from the 1800s.
  --$65,000.--Funding is urgently needed to update Essentials for 
        Animals in Research, as well as certain animal care manuals, 
        and then to translate them and AWA and its regulations into 
        Spanish; develop training DVDs, etc. In the past, this program 
        yielded very useful products, including the original Essentials 
        for Animal Research: A Primer for Research Personnel (which was 
        also translated into Spanish and is still among the top 10 
        downloaded documents); a video on normal animal behaviors; and 
        a training video on using animals in research. The growing 
        numbers of Spanish-speaking animal care personnel in U.S. 
        research facilities and zoos, as well as increasing interest on 
        the part of the scientific communities in Central and South 
        America, have made the availability of Spanish-language 
        materials a priority.
    AWIC's value to the research community and other entities that must 
comply with AWA, and to the general public, justifies this modest 
proposed increase in its budget.

  FOOD SAFETY AND INSPECTION SERVICE/HUMANE METHODS OF SLAUGHTER ACT 
                              ENFORCEMENT

Animal Welfare Institute Request: An Additional $2 Million for District 
        Veterinary Medical Specialists
    We appreciate the Congress' support during the past decade for 
enforcement of the Humane Methods of Slaughter Act (HMSA). While USDA's 
enforcement of the law has increased since 2008, following the exposure 
of egregious humane handling and food safety violations at the 
Westland-Hallmark plant in California, attention to the issue remains 
uneven among Federal regional districts.
    An analysis of Humane Activities Tracking System data reveals that 
some USDA districts spend 10-20 times the number of hours on humane 
enforcement as other districts. Overall, USDA continues to allot an 
extremely small percentage of its resources to humane slaughter. For 
example, in 2009, only 1.5 percent of Food Safety and Inspection 
Service (FSIS) verification procedures were conducted for humane 
handling and slaughter, and only 0.5 percent of all noncompliance 
records written by FSIS that year were for humane violations.
    Repeat violators present a major enforcement problem for FSIS. Of 
the 173 federally inspected plants that have been suspended for humane 
slaughter violations since January 1, 2005, 32 percent have been 
suspended more than once within a 1-year period. Moreover, 15 plants 
have been suspended on three or more occasions during the past 3 years.
    Federal inspection personnel have inadequate training in humane 
enforcement and inadequate access to humane slaughter expertise. 
Enforcement documents reveal that inspectors often react differently 
when faced with similar violations. District veterinary medical 
specialists (DVMSs) are stationed in each district to assist plant 
inspectors with humane enforcement and to serve as a liaison between 
the district office and headquarters on humane matters. However, the 
workload of each of the 15 DVMSs, which includes visiting each meat and 
poultry plant within the district to perform humane audits and 
conducting verification visits following suspensions, severely limits 
the effectiveness of the role.
    The problems of inadequate and inconsistent enforcement can be 
resolved by increasing the number and qualifications of the personnel 
assigned to humane handling and slaughter duties.
    The standard for time spent exclusively on HMSA-related inspections 
and enforcement should not fall below 140 full-time equivalent 
positions. In addition, the number of DVMS positions should be 
increased to an average of two per district. Enforcement records 
suggest that violations are reported with greater frequency in the 
presence of outside inspection personnel, such as DVMSs. Hiring 
additional DVMSs will provide for increased auditing and training to 
help uncover problems before they result in egregious humane handling 
incidents and potential food safety threats to the public.
    We thank the subcommittee for this opportunity to present testimony 
on behalf of important programs within USDA.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

    The Congress concluded that the Colorado River Basin Salinity 
Control Program (CRBSCP) should be implemented in the most cost-
effective way. CRBSCP is funded by the Environmental Quality Incentives 
Program (EQIP), the Bureau of Reclamation's (BOR's) Basinwide Program, 
and a cost share for both of these programs provided by the Basin 
States. Realizing that agricultural on-farm strategies were some of the 
most cost-effective strategies, the Congress authorized a program for 
the U.S. Department of Agriculture (USDA) through amendment of the 
Colorado River Basin Salinity Control Act (CRBSCA) in 1984. With the 
enactment of the Federal Agriculture Improvement and Reform Act of 1996 
(FAIRA), the Congress directed that CRBSCP should continue to be 
implemented as one of the components of EQIP. Since the enactment of 
the Farm Security and Rural Investment Act (FSRIA) in 2002, there have 
been, for the first time in a number of years, opportunities to 
adequately fund CRBSCP within the EQIP. In 2008, the Congress passed 
the Food, Conservation, and Energy Act (FCEA). The FCEA addresses the 
cost-sharing required from the basin funds. In so doing, the FCEA named 
the cost-sharing requirement as the Basin States Program (BSP). The BSP 
will provide 30 percent of the total amount that will be spent each 
year by the combined EQIP and BSP effort.
    CRBSCP, as set forth in CRBSCA, is to benefit lower basin water 
users hundreds of miles downstream from salt sources in the upper basin 
as the salinity of Colorado River water increases as the water flows 
downstream. There are very significant economic damages caused by high 
salt levels in this water source. Agriculturalists in the upper basin 
where the salt must be controlled, however, don't first look to 
downstream water quality standards but look for local benefits. These 
local benefits are in the form of enhanced beneficial use and improved 
crop yields. They submit cost-effective proposals to the State 
conservationists in Utah, Wyoming, and Colorado and offer to cost share 
in the acquisition of new irrigation equipment. It is CRBSCA that 
provides that the seven Colorado River Basin States will also cost 
share with the Federal funds for this effort. This has brought together 
a remarkable partnership.
    After longstanding urgings from the States and directives from the 
Congress, the USDA has concluded that this program is different than 
small watershed enhancement efforts common to EQIP. In the case of the 
Colorado River salinity control effort, the watershed to be considered 
stretches more than 1,200 miles from the river's headwater in the Rocky 
Mountains to the river's terminus in the Gulf of California in Mexico 
and receives water from numerous tributaries. The USDA has determined 
that this effort should receive a special funding designation and has 
appointed a coordinator for this multi-State effort.
    In recent fiscal years, the Natural Resources Conservation Service 
(NRCS) has directed that about $18 million of EQIP funds be used for 
CRBSCP. The Colorado River Basin Salinity Control Forum (CRBSCF) 
appreciates the efforts of the NRCS leadership and the support of this 
subcommittee. The plan for water quality control of the Colorado River 
was prepared by CRBSCF, adopted by the States, and approved by the 
Environmental Protection Agency (EPA). The Colorado River Basin 
Salinity Control Advisory Council has taken the position that the 
funding for the salinity control program should not be less than $20 
million per year. Over the last few fiscal years, for the first time, 
funding has almost reached the needed level. State and local cost-
sharing is triggered by the Federal appropriation. In fiscal year 2012, 
it is anticipated that the States will cost share with about $8 million 
and local agriculture producers will add more than $7 million. Hence, 
it is anticipated that in fiscal year 2012 the State and local 
contributions will be about 45 percent of the total program cost.
    Over the past few years, the NRCS has designated that about 2.5 
percent of the EQIP funds be allocated to CRBSCP. CRBSCF believes this 
is the appropriate future level of funding as long as the total EQIP 
funding nationwide is more than $1 billion. Funding above this level 
assists in offsetting pre-fiscal year 2003 funding below this level. 
The Basin States have cost-sharing dollars available to participate in 
funding on-farm salinity control efforts. The agricultural producers in 
the upper basin are waiting for their applications to be considered so 
that they might improve their irrigation equipment and also cost-share 
in CRBSCP.

                                OVERVIEW

    CRBSCP was authorized by the Congress in 1974. The title I portion 
of CRBSCA responded to commitments that the United States made, through 
a Minute of the International Boundary and Water Commission, to Mexico 
specific to the quality of water being delivered to Mexico below 
Imperial Dam. Title II of CRBSCA established a program to respond to 
salinity control needs of Colorado River water users in the United 
States and to comply with the mandates of the then newly enacted Clean 
Water Act. This testimony is in support of funding for the title II 
program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that CRBSCA needed to be amended. The Congress 
agreed and made a major revision to CRBSCA in 1984. That revision, 
while keeping the Department of the Interior as lead coordinator for 
Colorado River Basin salinity control efforts, also gave new salinity 
control responsibilities to the USDA. The Congress has charged the 
administration with implementing the most cost-effective program 
practicable (measured in dollars per ton of salt controlled). It has 
been determined that the agricultural efforts are some of the most 
cost-effective opportunities.
    Since congressional mandates of more than three decades ago, much 
has been learned about the impact of salts in the Colorado River 
system. BOR has conducted studies on the economic impact of these 
salts. BOR recognizes that the damages to United States' water users 
alone are hundreds of millions of dollars per year.
    CRBSCF is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah, and Wyoming. CRBSCF has 
become the seven-State coordinating body for interfacing with Federal 
agencies and the Congress in support of the implementation of the 
salinity control program. In close cooperation with the EPA and 
pursuant to requirements of the Clean Water Act, every 3 years CRBSCF 
prepares a formal report evaluating the salinity of the Colorado River, 
its anticipated future salinity, and the program elements necessary to 
keep the salinity concentrations (measured in total dissolved solids) 
at or below the levels measured in the river system in 1972 at Imperial 
Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations in 1972 have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review of water quality standards 
includes an updated Plan of Implementation. In order to eliminate the 
shortfall in salinity control resulting from inadequate Federal funding 
for a number of years from the USDA, CRBSCF has determined that 
implementation of CRBSCP needs to be accelerated. The level of 
appropriation requested in this testimony is in keeping with the 
agreed-upon plan. If adequate funds are not appropriated, significant 
damages from the higher salt concentrations in the water will be more 
widespread in the United States and Mexico.
    Concentrations of salts in the river cause well more than $300 
million in quantified damages and significantly more in unquantified 
damages in the United States and result in poorer quality water being 
delivered by the United States to Mexico. Damages occur from:
  --a reduction in the yield of salt-sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins; and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.

              STATE COST-SHARING AND TECHNICAL ASSISTANCE

    The authorized cost-sharing by the Basin States, as provided by 
FAIRA, was at first difficult to implement as attorneys for the USDA 
concluded that the Basin States were authorized to cost share in the 
effort, but the Congress had not given the USDA authority to receive 
the Basin States' funds. After almost 1 year of exploring every 
possible solution as to how the cost-sharing was to occur, the States, 
in agreement with BOR, State officials in Utah, Colorado, and Wyoming 
and with NRCS State conservationists in Utah, Colorado, and Wyoming, 
agreed upon a program parallel to the salinity control activities 
provided by EQIP wherein the States' cost-sharing funds are being 
contributed and used. We now have several years of experience with that 
program and with the passage of FCEA we now have a clear authority for 
this program that is now known as the Basin States Program.
    CRBSCA designates that the Secretary of the Interior provide the 
coordination for the Federal agencies involved in the salinity control 
program. That responsibility has been delegated to BOR. BOR administers 
the Basin States cost-sharing funds that are used in the Basin States 
Program.
    With respect to the use of Basin States' cost-sharing funds in the 
past, the Basin States felt that it was most essential that a portion 
of CRBSCP be associated with technical assistance and education 
activities in the field. Without this necessary support, there is no 
advanced planning, proposals are not well prepared, assertions in the 
proposals cannot be verified, implementation of contracts cannot be 
observed, and valuable partnering and education efforts cannot occur. 
Recognizing these values, it is essential that adequate funds for 
technical assistance be provided by USDA and the BSP.
                                 ______
                                 
          Prepared Statement of the Cystic Fibrosis Foundation

    On behalf of the Cystic Fibrosis Foundation (CFF) and the 
approximately 30,000 people with cystic fibrosis (CF), we are pleased 
to submit the following testimony regarding the fiscal year 2012 
appropriations for the Food and Drug Administration's (FDA's) review of 
rare disease treatments.

                         ABOUT CYSTIC FIBROSIS

    CF is a life-threatening genetic disease for which there is no 
cure. People with CF have two copies of a defective gene, known as CF 
transmembrane conductance regulator, which causes the body to produce 
abnormally thick, sticky mucus that clogs the lungs and results in 
fatal lung infections. The thick mucus in those with CF also obstructs 
the pancreas, making it difficult for patients to absorb nutrients from 
food.
    Since its founding, CFF has maintained its focus on promoting 
research and improving treatments for CF. More than 30 drugs are now in 
development to treat CF; some treat the basic defect of the disease, 
while others target its symptoms. Through the research leadership of 
CFF, people with CF are living into their thirties, forties, and 
beyond. This improvement in the life expectancy for those with CF can 
be attributed to research advances and to the teams of CF caregivers 
who offer specialized care. Although life expectancy has improved 
dramatically, we continue to lose young lives to this disease.
    The promise for people with CF lies in research. In the past 6 
years, CFF has invested more than $1 billion in its medical programs of 
drug discovery, drug development, research, and care focused on life-
sustaining treatments and a cure for CF.
    This testimony focuses on the funding the FDA needs to quickly and 
efficiently review treatments for CF and other rare diseases so they 
can swiftly move into the hands of the patients who need them.

       SUSTAINING FUNDING FOR RARE DISEASE DRUG REVIEW AT THE FDA

Cystic Fibrosis Foundation Drug Development Model
    CFF has been recognized for its unique research approach, which 
encompasses everything from basic research through phase 4 
postmarketing drug safety monitoring, and has created the 
infrastructure required to accelerate the development of new CF 
therapies. As a result, we now have a pipeline of more than 30 
potential therapies which are being examined to treat people with CF.
    One such treatment is VX-770, a drug being developed by Vertex 
Pharmaceuticals that was discovered in collaboration with CFF. This 
promising therapy actually targets the genetic defect that causes CF in 
patients with a particular mutation of CF, as opposed to only 
addressing symptoms of the disease. In late February we learned that 
phase 3 clinical trial data of VX-770 showed profound improvements in 
lung function and other health measures in CF patients, and a new drug 
application is expected to be submitted to the FDA for review later 
this year. This new treatment is a direct result of CFF's innovative 
research agenda, advancing from bench to bedside through CFF's research 
program which speeds the creation of new CF therapies.

Funding for Rare and Orphan Disease Drug Review
    In order to encourage the swift review of drugs for CF and other 
rare diseases, we urge the subcommittee to recommend sufficient funding 
for the FDA, particularly the Center for Drug Evaluation and Research's 
(CDER's) Office of New Drugs. Reducing FDA funding to fiscal year 2008 
levels, as has been proposed, would set rare drug review and approval 
back at a time when effective treatment for some of our most deadly 
diseases is sorely needed.
    In order to be effective, the FDA needs not only an adequate number 
of reviewers of new treatments, but also those with the appropriate 
skills and expertise, particularly for rare diseases like CF. 
Additional support for the FDA through increased funding not only 
assures that the Nation has a safe and effective supply of drugs and 
devices, but also that the agency can give the necessary attention to 
reviewing treatments that treat small populations but serve specific 
unmet medical needs, such as new CF drugs.
    The subcommittee and the Congress should be commended for recent 
funding increases for the FDA. Nonetheless, the agency continues to 
face resource constraints. Its workload has increased due to threats 
from bioterrorism and other public health emergencies. Even with 
funding increases in recent years, FDA's appropriation supported about 
9,100 full-time employees in fiscal year 2010. This is the same 
personnel level as 1994, a time in which FDA faced fewer challenges and 
its job was considerably less complex.
    It is now more critical than ever that the Congress significantly 
increase funding for CDER at the FDA and for the agency as a whole in 
fiscal year 2012, so that it can meet its statutory obligations to 
review drugs for safety and efficacy in a timely manner.

Accelerating the Rare Disease Drug Review Process at the FDA
    CFF applauds the FDA, and Associate Director for Rare Diseases Dr. 
Anne Pariser in particular, for their attention to rare disease drugs 
and sensitivity to the unique challenges posed by the evaluation of 
these treatments.
    FDA review officials have taken steps to improve their scientific 
expertise for review of therapies to treat rare diseases, and FDA 
leaders and review staff have been willing to engage in constructive 
dialogue to address issues with rare disease review. The agency has 
consistently taken part in productive conversations with medical 
experts, researchers, clinicians, and patients at CFF, including many 
of the foremost experts in the world on CF. This collaboration has 
augmented the FDA's work, allowing experts in CF to provide the FDA 
with the information it needs to effectively evaluate new treatments 
and accelerate the approval process, such as CFF's ongoing research 
into the development of improved tools for Patient Reported Outcomes 
and measurements of lung function.
    However, in many cases the opportunity for public comment is not 
available if the product in question is not the subject of an advisory 
committee. In all cases, this public comment period occurs very late in 
the review process. We recommend that the agency consider establishing 
a procedure to receive comment from patients and their physicians 
earlier in the process, at the time of the submission of the 
investigational new drug application. Receiving such input earlier 
might be especially useful in defining and addressing the matter of 
unmet medical need. Because orphan diseases are by definition of 
limited prevalence, it is generally unlikely that specific expertise in 
the disease will be available among FDA staff. For that reason, the 
agency should be willing to inform its review process through early 
input from experts--both patients and professionals--regarding living 
with the disease, treating the disease, and developing therapies for 
it.
    Additionally, CFF commends the establishment of the new Regulatory 
Science Initiative, formed by the National Institutes of Health and the 
FDA, with the goal of accelerating the development and use of new 
approaches to evaluate drug safety, efficacy, and quality, and urges 
the subcommittee to strongly support this type of collaboration. 
Support for these types of collaborations throughout the national 
health agencies, including programs like the Therapeutics for Rare and 
Neglected Diseases Program and the Cures Acceleration Network, 
leverages the Federal investment in new research, facilitating swifter 
development, and delivery of new medical treatments.
    CFF's unique and successful drug development model for creating 
treatments for a rare disease has helped create a pipeline with more 
than 30 promising drugs to fight CF, and the FDA has played a critical 
role in this process, working with CFF as they review treatments and 
move them into the hands of those who need them. Encouraged by our 
successes, we believe the experience of CFF in clinical research can 
serve as a model of drug discovery and development for research on 
other orphan diseases and we stand ready to work with the FDA and 
congressional leaders. On behalf of CFF, we thank the subcommittee for 
its consideration.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    On behalf of the Federation of American Societies for Experimental 
Biology (FASEB), I respectfully request a fiscal year 2012 
appropriation of $500 million for the Agriculture and Food Research 
Initiative (AFRI) within the National Institute of Food and 
Agriculture. This funding level would keep AFRI on a path to its 
authorized level of $700 million in the 2008 Food, Conservation, and 
Energy Act.
    As a federation of 23 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences, including the 
research funded by AFRI, through service to its member societies and 
collaborative advocacy. FASEB enhances the ability of scientists and 
engineers to improve--through their research--the health, well-being, 
and productivity of all people.
    As the Department of Agriculture's principal extramural competitive 
grants program, AFRI funds agricultural research, education, and 
extension activities critical to improving the Nation's health and 
prosperity. In order to optimize the effectiveness of its resources, 
the AFRI program facilitates collaborative, interdisciplinary research 
that addresses broad societal challenges while expanding the 
fundamental understanding of all life sciences. In addition, AFRI 
encourages young scientists to undertake agricultural research by 
providing grant opportunities for pre- and postdoctoral scholars. 
Currently, our Federal investment in competitive agricultural research 
is only $262 million. This is woefully inadequate to ensure viability 
of a vital industry whose contribution to the economy is more than $300 
billion annually. A report by the Economic Research Service found 
``strong and consistent evidence'' that investment in agricultural 
research has yielded ``high returns per dollar spent,'' citing mean 
annual rates of return of 53 percent. Our investment in agricultural 
research directly benefits all sectors of society and every geographic 
region of the country.
    AFRI creates the necessary resources and infrastructure to 
efficiently translate scientific discoveries into a broad range of 
applications. For example, a team of scientists has identified the 
genes that determine why some varieties of wheat are more tolerant to 
freezing temperatures than others, enabling researchers to use plant 
breeding techniques to accelerate the selection of hardier wheat 
plants. By reducing the effect of cold winters on wheat production, the 
United States can continue to meet the demands of a growing global 
population and remain the world's leading exporter of wheat. AFRI 
research also makes critical contributions to improving human health; 
scientists studying a bacterial type that commonly causes food 
poisoning have determined the mechanism by which it withstands food 
safety precautions, such as heating, refrigeration, and chemical 
preservatives. Other AFRI-funded researchers have found evidence that a 
naturally secreted chemical plays a key role in controlling the 
accumulation of fat in humans and animals, a discovery with important 
implications for the prevention of obesity-related human diseases and 
the agricultural production of leaner, healthier livestock. Strong 
funding for AFRI projects like these is also an effective way to 
attract outstanding scientists to careers in agricultural research. The 
ability of the United States to meet the need for better nutrition, new 
biofuels, more efficient agriculture, and a safer food supply will 
depend on investment in the agricultural sciences as well as 
development and retention of a robust and scientifically diverse 
agricultural research workforce. Furthermore, because of the 
collaborative work of science agencies and the increasingly 
interdisciplinary nature of scientific research, support for the 
Federal research and development portfolio has never been more 
important to the future of the United States. The solutions to our 
Nation's most pressing challenges depend on advances in the 
agricultural sciences.
    Thank you for the opportunity to offer FASEB's support for AFRI.
                                 ______
                                 
                 Prepared Statement of Feeding America

    Chairman Kohl, Ranking Member Blunt, and members of the U.S. Senate 
Committee on Appropriations, Subcommittee on Agriculture, Rural 
Development, Food and Drug Administration, and Related Agencies, thank 
you for the opportunity to submit this statement for the record on 
behalf of Feeding America. We look forward to the chairman and the 
subcommittee's examination of the U.S. Department of Agriculture's 
(USDA's) fiscal year 2012 budget request and in particular, the 
programs administered by USDA's Food and Nutrition Service.
    Feeding America is the Nation's leading domestic hunger-relief 
charity with a network of more than 200 food banks in every State 
serving more than 61,000 local food assistance agencies. Feeding 
America food banks as well as food assistance agencies rely on a 
variety of public and private funding streams to feed 37 million 
Americans a year, including 14 million children and nearly 3 million 
seniors.
    During the worst economic downturn since the Great Depression, the 
number of American families struggling to make ends meet has increased 
significantly. With unemployment still hovering near 9 percent, the 
need for food assistance continues to grow and food banks continue to 
be pressed to meet the need in their communities. Last year, 37 million 
people, or 1-in-8 Americans, received emergency food assistance through 
the Feeding America network. This represents an increase of 46 percent 
since 2006. As a result, approximately 5.7 million people per week are 
now receiving emergency food assistance through Feeding America food 
banks.
    The food distributed by Feeding America food banks and the 
children's and senior's programs our food bank members run in local 
communities provide a solid return on taxpayer investments and help 
reduce State government and private-sector health costs as well as help 
invest in a healthy future workforce. Emergency food assistance 
provides support not only to struggling working Americans but also to 
farmers and the agriculture industry through purchase of commodities.
    While Feeding America receives generous support from our national 
and local charitable donors, we would not be able to continue serving 
those in need were it not for the food commodities provided by USDA. 
Indeed, these commodities comprise approximately 25 percent of all the 
food moving through the Feeding America network, and are among some of 
the most nutritious foods that our food banks provide. Without this 
steady, reliable source of nutritious basic food staples, Feeding 
America food banks would simply be unable to continue serving those in 
need on a consistent basis.

           THE EMERGENCY FOOD ASSISTANCE PROGRAM COMMODITIES

    The Emergency Food Assistance Program (TEFAP) is a means-tested 
Federal program that provides food commodities at no cost to low-income 
Americans in need of short-term hunger relief through organizations 
like food banks, pantries, soup kitchens, and emergency shelters. 
Healthy and nutritious food commodities provided through TEFAP are an 
essential resource for the continued success of Feeding America food 
banks.
    TEFAP commodities currently account for approximately 25 percent of 
the food moving through Feeding America food banks. In most instances, 
local food banks leverage TEFAP commodities with privately donated 
foods to extend TEFAP program benefits beyond the budgeted amount for 
the program. As the unprecedented demand for food continues at food 
banks across the country, TEFAP commodities are essential for the 
provision of a steady emergency food supply.
    Unfortunately, the level of commodity support Feeding America 
receives from USDA is projected to drop off in fiscal year 2011 and on 
into fiscal year 2012. In Federal fiscal year 2010, TEFAP provided 
approximately $655 million worth of nutritious foods to low-income 
Americans. This figure includes commodity purchases mandated by the 
2008 farm bill as well as bonus commodity purchases that were 
appropriated for in fiscal year 2010 and those purchases made by USDA 
when necessitated by market conditions. Unfortunately though, even as 
the need remains at unprecedented levels, if no additional bonus 
purchases are made in fiscal year 2011, TEFAP spending levels will fall 
to $355 million. This decrease will severely impact efforts to address 
the growing need for emergency food assistance. Without additional 
funding for commodities, too many Americans may go without adequate 
access to the food they need.
    While most decisions on TEFAP spending are made either by the 
authorizing committee or by the administration, Feeding America urges 
this subcommittee to work with the Secretary of Agriculture to identify 
ways to increase the supply of TEFAP commodities and to consider making 
TEFAP a direct beneficiary of any farm support expenditures that may be 
included in a fiscal year 2012 appropriations bill.

    THE EMERGENCY FOOD ASSISTANCE PROGRAM ADMINISTRATIVE GRANTS AND 
                         INFRASTRUCTURE GRANTS

    In order for States to distribute commodity foods to emergency food 
providers and for those providers to get the food to those in need, 
Federal funding is appropriated each year to help defray the costs of 
storing, transporting, and distributing TEFAP commodities. For the past 
several years, despite an authorized spending level of $100 million per 
year, the appropriated funding level has remained steady at $50 million 
per year.
    As food banks are already struggling to respond to a significant 
increase in demand, they can no longer afford the rising costs 
associated with storing and distributing emergency food commodities 
without adequate Federal assistance. While the increase in TEFAP 
products that require refrigeration or freezer capacity has been a 
welcome addition for clients, these products are costly to store and 
deliver across large service areas. Funding TEFAP administrative grants 
at the $100 million level authorized in fiscal year 2012 is critical to 
helping food banks ensure they can provide a wide variety of nutritious 
TEFAP foods to help meet the needs of hungry Americans.
    Similarly, TEFAP infrastructure grants, which received $6 million 
in appropriations in fiscal year 2010, are essential to helping 
emergency food providers meet a variety of infrastructure needs, and 
ensuring the effective and efficient delivery of TEFAP foods to those 
most in need. Funding provided through this competitive grant program 
may be used to help emergency food providers implement, improve, and 
expand their infrastructure activities and projects. Specific items 
that may be funded include developing computerized systems for tracking 
time-sensitive food products; improving the distribution of perishable 
foods (such as fresh fruits and vegetables); rescuing prepared, 
unserved food; identifying donors and eligible recipients; and 
improving facilities and equipment.
    In fiscal year 2010, USDA awarded TEFAP Infrastructure Grants to 39 
emergency food providers, 19 of whom primarily served low-income 
individuals in rural areas. However, USDA had at least four times as 
many applicants for these grants as they had funding to award. The 2008 
farm bill authorizes $15 million per year in annual appropriations for 
this program, and Feeding America urges the subcommittee to provide 
full funding for this program in fiscal year 2012 so that even more 
emergency food providers can benefit.

                  COMMODITY SUPPLEMENTAL FOOD PROGRAM

    Administered by USDA, the Commodity Supplemental Food Program 
(CSFP) leverages Government buying power to provide nutritionally 
balanced food packages to more than 604,000 low-income seniors 60 years 
or older, pregnant and postpartum women, infants, and children up to 6 
years old each month in 39 States, two tribal organizations, and the 
District of Columbia. More than 96 percent of those benefiting from 
this program are seniors with incomes of less than 130 percent of the 
Federal poverty line (approximately $14,000 for a senior living alone). 
For many of these seniors, CSFP may be the only nutrition assistance 
program readily accessible to them.
    CSFP is an efficient and effective program. While the cost to USDA 
to provide this package of food is, on average, $20 per month, the 
average retail value of the foods in the package is $50. For the 
seniors participating in this program, CSFP provides more than just 
food and nourishment, it also helps to combat the poor health 
conditions often found in seniors who are experiencing food insecurity 
and at risk of hunger. According to analysis of data from the 1999-2002 
National Health and Nutrition Examination Survey, seniors older than 
the age of 60 who are experiencing some form of food insecurity are 
significantly more likely to have lower intakes of major vitamins, 
significantly more likely to be in poor or fair health, and more likely 
to have limitations in activities of daily living. CSFP food packages, 
specifically designed to supplement needed sources of nutrients 
typically lacking in participants' diets like protein, iron, zinc, and 
vitamins B-6 and B-12, can play an important role in addressing the 
nutrition needs of low-income seniors.
    In fiscal year 2010, CSFP received $171.4 million in appropriated 
funds. These funds enabled to program to expand caseload to additional 
participants in States and areas with an existing CSFP program and 
provided $5 million for seven additional States--Arkansas, Delaware, 
Georgia, Maine, New Jersey, Oklahoma, and Utah--to begin CSFP service 
for the first time ever. In order to maintain existing caseload in 
fiscal year 2012, Feeding America urges the subcommittee to support the 
President's CSFP budget request for $176.8 million. In addition, we 
urge the subcommittee to provide an additional $5 million to expand the 
program into the six additional States (Connecticut, Hawaii, Idaho, 
Maryland, Massachusetts, and Rhode Island) with USDA-approved State 
plans.

                               CONCLUSION

    We greatly appreciate the opportunity to submit testimony today on 
behalf of Feeding America, our more than 200-member food banks, and the 
37 million Americans our food banks fed last year. For these growing 
numbers of Americans, food banks are truly the first line of defense, 
and many times the only resource standing between them being able to 
put food on the family dinner table or going to bed with an empty 
stomach. However, our food banks and the charitable food assistance 
network cannot be expected to meet the needs of these families alone. 
It is only through our partnership with the public sector and the 
sustained support the Federal Government provides through programs like 
TEFAP and CSFP that we can make real strides in the fight against 
hunger.
                                 ______
                                 
  Prepared Statement of Friends of Agricultural Research--Beltsville, 
                                  Inc.

    Mr. Chairman, and members of the subcommittee, thank you for this 
opportunity to present our statement supporting funding for the U.S. 
Department of Agriculture's (USDA's) Agricultural Research Service 
(ARS), and especially for the ARS flagship research facility, the Henry 
A. Wallace Beltsville Agricultural Research Center (BARC), in Maryland. 
Our organization--the Friends of Agricultural Research--Beltsville 
(FAR-B) promotes the center's current and long-term agricultural 
research, outreach, and educational missions.
    We begin, Mr. Chairman, by citing from Agriculture Secretary Tom 
Vilsack's March 10, 2011, remarks before the Senate Appropriations 
Subcommittee on Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies. To quote from Secretary's 
Vilsack's remarks:

    ``Scientific research is essential for achieving [our] goals. To 
promote American innovation, new discoveries, and new industries, we 
continue to target and focus additional research dollars in key areas, 
like biofuel feedstocks, livestock and crop production and protection, 
ecosystem market foundations, and biotechnology.''

    Also:

    ``We will invest in research to spur innovation, promote exports, 
support renewable energy and conservation, and enhance critical 
infrastructure in rural communities.''

    Our organization could not agree more strongly with Secretary 
Vilsack. Writing on world food in the March 14, 2011, Washington Post, 
highly regarded columnist Robert J. Samuelson warned, ``the global food 
squeeze is largely an uncovered story.'' According to Samuelson, global 
food demand is colliding with strained food supplies. Middle East 
countries, he notes, are importing 50 percent or more of their wheat, 
and looking back from February world wheat prices have doubled in 8 
months. Calling the situation the ``Great Food Crunch,'' Samuelson 
cites growing affluence leading to higher consumption of meat and dairy 
products, and exploding population growth as major contributing 
factors. Looking ahead, he notes that from 2010 to 2050 world 
population is projected to grow by 38 percent, from 6.9 billion to 9.5 
billion.
    Can world food production keep pace with growing demand? There are 
those who would argue that it cannot. Yet the more hopeful of us take 
reassurance in technological advances originating from BARC. Please 
consider as recently as 1950 U.S. average corn yields were 38 bushels 
per acre. Average wheat yields were 17 bushels per acre. By 2010, 
average U.S. corn yields had jumped to 153 bushels per acre, while 
average wheat yields grew to an impressive 46 bushels per acre. 
Technological discoveries from Beltsville contributed tremendously to 
that progress. For decades, Beltsville has stood at the forefront of 
technical advances in agriculture. In 2010, the center celebrated 100 
years of research accomplishments. The center's landmark technological 
achievements over that time are truly remarkable. We would be pleased 
to provide documentation should the subcommittee so wish.
    Today, Beltsville is unequalled in scientific capability, breadth 
of agricultural research program, and concentration of scientific 
expertise. Under the leadership of Director Joseph Spence and with its 
powerful scientific capability, BARC remains unique and indispensable 
to meeting the challenges that lie ahead.
    We are aware of the financial constraints facing our country. We 
are aware, too, of urgent demands for funding among compelling national 
priorities. Securing ample, safe, and nutritious food--food security--
has always been the most compelling of human priorities. That is true 
today, and it will be no less so in the years ahead. Commentators such 
as Robert Samuelson speculate that as much as oil, scarce food could 
shape global politics for decades to come.
    In summation, Mr. Chairman, we strongly support adequate funding 
for BARC. We would respectively suggest that adequately funding the 
USDA's flagship research center is central to maintaining national and 
world food security.
     priorities in the president's fiscal year 2012 budget request
    Now, Mr. Chairman, we turn to key research areas highlighted in the 
President's proposed budget. We strongly recommend this proposed 
funding. Our recommendation is consistent with the remarks of Secretary 
Vilsack.
    Animal Breeding and Protection.--$1 million:
  --Beltsville has extensive research activity related to animal 
        production and animal health.
  --Research conducted at BARC is the foundation for the dairy industry 
        in it's research on the genetic prediction of dairy cows that 
        can more efficiently meet the Nation's dairy needs. Slight 
        differences in milk production by a cow can mean the difference 
        between profitability and loss by dairy farmers.
  --Research at BARC is aimed at preventing development of resistance 
        to drugs used for treating cattle for parasites.
    Crop Breeding and Protection.--$1 million:
  --Beltsville scientists have an extensive record of ongoing research 
        relating to protecting crops from pests and emerging pathogens.
  --Beltsville has unique expertise to identify pathogens such as 
        nematodes and insects that can destroy crops or make crops 
        ineligible for export to other countries.
  --Beltsville also houses the Germplasm Resource Information Network, 
        the U.S. coordinating body to identify and catalog plant 
        germplasm. It is essential to maintain these important 
        functional operations to identify plant germplasm that is 
        diseases resistant, drought tolerant, and most valuable to the 
        consumer.
    Child and Human Nutrition.--$4.5 million:
  --Beltsville houses the Nation's largest, most comprehensive 
        federally funded human nutrition research center, the 
        Beltsville Human Nutrition Research Center (BHNRC).
  --Unique activities include the What We Eat in America survey, which 
        is the Government's nutrition monitoring program and the 
        National Nutrient Databank, the gold standard reference of food 
        nutrient content. It is used throughout the world. These two 
        activities are the basis for food labels, nutrition education 
        programs, food assistance programs including SNAP, the 
        Supplemental Nutrition Assistance Program, school feeding 
        programs, and Government nutrition education programs.
  --The research facilities at BHNRC feature unique feeding facilities 
        and are used in collaboration with other Federal agencies, 
        including the National Institutes of Health, industry, and 
        university partners.
  --Obesity is a serious problem in the United States and it must be 
        dealt with. Effective nutrition programs aimed at preventing 
        the onset of obesity are needed to prevent the high costs of 
        medical care associated with the epidemic of obesity in this 
        country.
    Global Climate Change.--$800,000:
  --Beltsville had been actively engaged in climate change research 
        long before climate change became a topic of discussion in the 
        media.
  --Beltsville scientists are at the forefront of climate change 
        research--understanding how climate change affects crop 
        production and the effects of climate change on growth and 
        spread of invasive and undesirable plants (such as weeds). A 
        central aim is finding ways to mitigate effects of climate 
        change on crops.
  --Beltsville houses truly unique facilities for replication of 
        climates of the past and those that might exist in the future. 
        Scientists here are able to model the effects of climate change 
        and to develop strategies to mitigate the effects of any 
        changes in climate.
    Plant, Animal, and Microbial Collections.--$1.25 million:
  --BARC houses many truly unique national biological collections that 
        are indispensable to the well-being of American agriculture. In 
        addition to the actual collections, BARC scientists are 
        internationally recognized for their expertise and ability to 
        quickly and properly identify threats to agriculture.
  --This expertise is crucial to preventing loss of crops and animals, 
        ensuring that threats to American agriculture are identified 
        before they can enter the country, ensuring homeland security, 
        and ensuring that American exports are free of pests and 
        pathogens that could prohibit exports to other countries.
  --Collections and expertise include insect pests, fungal pathogens, 
        bacterial threats, and nematodes.
  --BARC houses the National Animal Parasite collection and has the 
        expertise to identify parasites that are of importance to 
        agricultural animals.
    Mr. Chairman, that concludes our statement. Thank you for 
consideration and support for the educational, research, and outreach 
missions of BARC.
                                 ______
                                 
        Prepared Statement of the Izaak Walton League of America

    The Izaak Walton League of America (IWLA) appreciates the 
opportunity to submit testimony concerning appropriations for fiscal 
year 2012 for various agencies and programs under the jurisdiction of 
the subcommittee. IWLA is a national, nonprofit organization founded in 
1922. We have approximately 38,000 members and nearly 300 chapters and 
State divisions nationwide. Our members are committed to advancing 
common sense policies that safeguard wildlife and habitat, support 
community-based conservation, and address pressing environmental 
issues. IWLA has been a partner with farmers and a participant in 
forming agriculture policy since the 1930s. The following pertains to 
conservation programs administered by the U.S. Department of 
Agriculture (USDA).
    The Food, Conservation, and Energy Act of 2008 (farm bill) was 
enacted with a prominent commitment to increased mandatory conservation 
spending. It was bipartisan and supported by more than 1,000 diverse 
organizations engaged in farm bill policy. We urge the subcommittee to 
maintain the mandatory spending levels for conservation programs as 
provided in the farm bill. IWLA strongly opposes the administration's 
proposal to cut essential conservation programs, placing the farm bill 
baseline in jeopardy, in fiscal year 2012 and beyond.
    IWLA is also concerned that the administration's budget would not 
only deprive farmers and ranchers of conservation and environmental 
stewardship assistance in fiscal year 2012, but would also reduce the 
farm bill conservation baseline. These programs benefit producers 
through improved soil quality and productivity of their land, and the 
American people through cleaner air and water and healthy habitat. 
Reducing the farm bill baseline in the face of increasing future 
demands for resource protection and productivity is counterproductive.
    IWLA and its members across the country are especially focused on 
the following core conservation programs:
    Conservation Reserve Program (CRP).--CRP reduces soil erosion, 
protects water quality, and enhances habitat through long-term 
contracts with landowners that convert highly erodible cropland to more 
sustainable vegetative cover. The administration's budget is strongly 
supportive of CRP because it proposes to allow landowners to enroll up 
to 6 million acres in fiscal year 2012, on top of the 3.95 million 
acres sought in the fiscal year 2011 general signup. After the 2008 
farm bill reduced the overall acreage limit for CRP to 32 million 
acres--it is encouraging to see the effort being made to ensure farmers 
and ranchers are able to achieve the maximum allowable enrollment for 
their most sensitive lands and most important habitat.
    Wetlands Reserve Program (WRP).--WRP provides technical and 
financial assistance to landowners to restore and protect wetlands on 
their properties. Wetlands are generally conserved through permanent or 
30-year easements purchased by the USDA. Unfortunately, the President 
proposes to permanently reduce the farm bill authorization for WRP by 
158,895 acres. The action taken with this proposal is to arbitrarily 
rewrite the Federal farm bill's multi-year obligation as signed into 
law in 2008. IWLA opposes this cut and urges the Congress to uphold the 
binding, 5-year commitment made to WRP.
    Grassland Reserve Program (GRP).--GRP focuses on limiting 
conversion of pasture and other grasslands to cropland or development 
while allowing landowners to continue grazing and other operations that 
align with this goal. The President's budget also proposes to 
permanently cut the mandated total acreage for GRP by 165,684 acres. 
Again, IWLA opposes this reduction because it will undermine efforts to 
protect one of the country's most threatened natural resources through 
fiscal year 2012 and beyond.
    Conservation Stewardship Program (CSP).--CSP is a comprehensive 
approach to conserving soil, water, and other natural resources across 
a range of lands, including cropland, prairie, and forests. CSP makes 
conservation the basis for a producer to receive Federal financial 
support rather than limitless subsidies for intensive production of a 
few crops. It is troubling that the administration's fiscal year 2012 
budget is proposing to cut the number of acres that could be enrolled 
in CSP by 764,204. IWLA opposes this cut because CSP is a 
comprehensive, whole-farm approach to conservation that can maximize 
benefits to natural resources, fish and wildlife, and producers alike.
    Wildlife Habitat Incentives Program (WHIP).--WHIP helps 
agricultural landowners develop habitat for upland wildlife, wetland 
wildlife, threatened and endangered species, fish, and other wildlife. 
The President's fiscal year 2012 proposal also seeks to permanently 
reduce the mandatory commitment established for WHIP in the Federal 
farm bill. The budget would cut fiscal year 2012 funding for WHIP by 14 
percent, or $12 million. IWLA opposes this damaging cut to a program 
with the central goal of supporting wildlife resources in rural 
America.
    Finally, effective implementation of farm bill conservation 
programs depends upon adequate technical resources to work with 
landowners in addressing their unique environmental concerns. Although 
conservation programs are available, underinvestment in technical 
assistance limits agency support to assist farmers and ranchers in 
selecting and optimizing appropriate programs for their operations. The 
technical expertise of the Natural Resource Conservation Service and 
partners that assist in the delivery of programs and technical 
assistance directly to landowners is necessary for the adoption and 
maintenance of conservation practices. We request that the subcommittee 
support the mandatory levels of conservation program funding as 
provided in the farm bill to enable robust technical resources to 
implement those programs successfully.
    We appreciate the opportunity to testify in strong support of fully 
funding agricultural conservation programs.
                                 ______
                                 
   Prepared Statement of the National Association of County and City 
                            Health Officials

                               BACKGROUND

    The National Association of County and City Health Officials 
(NACCHO) represents the Nation's 2,800 local health departments (LHDs). 
These governmental agencies work every day in their communities to 
prevent disease, promote wellness, and protect the health of the entire 
community. LHDs have a unique and distinctive role and set of 
responsibilities in the larger health system and within every 
community. The Nation depends upon the capacity of LHDs to play this 
role well.
    LHDs have wide ranging responsibilities including measuring 
population-wide illness, organizing efforts to prevent disease and 
prolong quality of life, and to serve the public through programs not 
offered elsewhere. Two of those responsibilities are preventing 
foodborne illness and investigating the cause and spread of illness. In 
fact, LHDs are the significant majority of the 3,000 State, local, and 
tribal agencies that have primary responsibility to regulate the more 
than 1 million food establishments in the United States.
    However, the Nation's current fiscal challenges have diminished the 
resources available to, and therefore the ability of, LHDs to focus on 
the problem of foodborne illness. NACCHO surveys reveal that in the 3-
year period covering 2008-2010, 29,000 jobs have been lost in LHDs, 
which represents a 19-percent cut in local public health jobs 
nationwide.
    Even so, LHDs continue to respond to increased threats of all 
types, from rising chronic disease rates to public anxiety about 
potential radiation from the recent disaster in Japan. These increased 
threats, combined with budget cuts, layoffs, and furloughs make it more 
and more difficult for LHDs to respond to outbreaks of foodborne 
illness.
    Despite the best efforts of public officials, more than 48 million 
cases of preventable foodborne illness occur every year in this 
country. Many of these cases cause pain and suffering, high medical 
bills, disability, lost productivity, lower life expectancy, and death. 
In fact, foodborne illness causes an estimated 128,000 hospital visits 
and 3,000 deaths annually.
    Last year, the Congress passed historic and bipartisan food safety 
legislation. This legislation recognized the importance of protecting 
the public from foodborne illness and the shortcomings of our current 
system. It is clear that LHDs are facing increasing budget pressures 
and that the enormous societal costs imposed by foodborne illness can 
be reduced with extremely modest investments in training as well as 
regulation and enforcement at the retail level. The return on Federal 
investment in retail food safety, training, and enforcement can be 
measured in improved health and lower healthcare costs and lost 
productivity. It is our members' experience that ``tough but fair'' 
enforcement is valued by industry.

       FOOD AND DRUG ADMINISTRATION RETAIL FOOD SAFETY INITIATIVE

NACCHO Request: $5.6 Million
            President's Fiscal Year 2012 Budget: $5.6 Million (New 
                    Program)
    FDA conducted a 10-year study of more than 800 retail food 
establishments to determine compliance with five key risk factors for 
foodborne illness in nine types of retail operations. These included 
schools, hospitals, and nursing homes, as well as markets and 
restaurants. This study provides the evidence to support a robust, 
science-based approach to food safety at the retail level, where food 
is handled, prepared, and stored prior to direct purchase by consumers 
and where a significant amount of preventable foodborne illness begins. 
LHDs are on the front lines conducting food safety inspections and have 
the expertise to educate food handlers in their communities.
    The presence of certified food safety managers in retail 
establishments is an important factor in achieving overall risk 
reduction in food service operations. It is not possible to attribute 
improvement in overall compliance with food safety standards to any 
single factor, due to the number of interdependent variables with any 
given food service operation. However, NACCHO firmly believes that the 
comprehensive approach of the Food and Drug Administration's (FDA's) 
Retail Food Safety Initiative will significantly enhance the capacity 
of LHDs to achieve compliance with improved food safety standards, 
thereby reducing the incidence of foodborne illness. NACCHO recommends 
a funding level of $5.6 million in fiscal year 2012 to implement this 
initiative, which recognizes the critical importance of local food 
safety activities to protect the Nation's consumers.

                        FDA FOOD SAFETY TRAINING

NACCHO Request: $8 Million
            President's Fiscal Year 2012 Budget: $8 Million
                Fiscal Year 2010 Funding: $1 Million
    It is crucial that regulators and public health partners have the 
appropriate knowledge and training to carry out their duties to safe 
guard our citizens from foodborne illness. The Congress provided $1 
million in fiscal year 2010 appropriations and the International Food 
Protection Training Institute (IFPTI) is already up and running. 
However, food safety training requires continued funding to increase 
capacity and adequately train our Nation's food protection workers. A 
national food safety training system, including a certification system, 
will ensure that officials at all levels of Government have current, 
consistent, and adequate knowledge, as well as the necessary skills, to 
do their jobs. Without a robust national training system, we risk 
having a food safety workforce applying a patchwork of standards and 
methodologies without the ability to consistently and continuously 
improve their knowledge and skills based on the latest science and risk 
assessments. NACCHO recommends a funding level of $8 million in fiscal 
year 2012 to continue to implement an effective food safety training 
system.
    As you draft the fiscal year 2012 Agriculture, Rural Development, 
Food and Drug Administration, and Related Agencies appropriations bill, 
we ask that you consider our recommendations for these two programs 
that are critical to ensuring the safety of our Nation's food supply 
and will protect our Nation's people. NACCHO thanks you for your 
previous support of food safety and welcomes the opportunity to discuss 
this further with the subcommittee.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials

    Chairman Kohl, Ranking Member Blunt, and members of the 
subcommittee, I am Phil Giudice, chairman of the National Association 
of State Energy Officials (NASEO). NASEO is submitting this testimony 
in support of funding of at least $39 million in discretionary 
appropriations for the Rural Energy for America Program (REAP) (section 
9007 of the 2008 farm bill) in addition to $70 million in mandatory 
funding. REAP was created as part of the 2002 farm bill and it has been 
a huge success. Approximately 4,000 clean energy projects have been 
implemented in every State since 2003. These activities have included 
energy efficiency projects, as well as wind, solar, biomass, anaerobic 
digesters, biodiesel, and geothermal. Technical assistance has also 
been a big factor in this program. Funding requests are generally three 
times the amount of available funds. NASEO has worked with farmers, our 
State agricultural agencies, and rural interests to promote this 
successful program. As we face dramatically increasing energy bills for 
all sectors of the economy (and increased volatility in energy prices), 
it is critical that we do more to address the energy problems of rural 
America.
    Greater energy efficiency and renewable energy use in the farm 
sector will help create jobs, increase agricultural productivity, and 
improve the environment. Funding for the energy title of the farm bill 
is a critical public investment.
                                 ______
                                 
Prepared Statement of the National Commodity Supplemental Food Program 
                              Association

    Mr. Chairman and subcommittee members, thank you for this 
opportunity to present information regarding the U.S. Department of 
Agriculture (USDA)/Food and Nutrition Service's Commodity Supplemental 
Food Program (CSFP).
    The National Commodity Supplemental Food Program Association 
(NCSFPA) requests the Senate Agriculture Appropriations Subcommittee 
fund CSFP for fiscal year 2012 at $207.588 million, $176.788 million as 
requested by the USDA, an additional $5 million to begin CSFP 
operations in six States (Connecticut, Hawaii, Idaho, Maryland, 
Massachusetts, and Rhode Island) with USDA-approved plans, plus $25.8 
million to meet pending requests for increasing caseload by 114,000 
slots, and include language directing the Department to utilize all 
available resources to supplement the CSFP food package and meet the 
rising demand for nutritional assistance among our vulnerable senior 
population.
    CSFP is a unique program that brings together Federal and State 
agencies, along with public and private entities. Low-income seniors 
added since 1983 now comprise 96 percent of all CSFP participants. The 
USDA purchases specific nutrient-rich foods at wholesale prices, 
including canned fruits and vegetables, juices, meats, fish, peanut 
butter, cereals, grain products, cheese, and dairy products from 
American farmers. State agencies provide oversight, contract with 
community and faith-based organizations to warehouse and distribute 
food, certify eligibility, and educate participants. Local 
organizations build broad collaboration among nonprofits, health units, 
and area agencies on aging for simple, fast access to these 
supplemental foods and nutrition education to improve participants' 
health and quality of life. This partnership reaches even homebound 
seniors in both rural and urban settings with vital nutrition and 
remains an important ``market'' for commodities supported under various 
farm programs.
    In fiscal year 2010, the CSFP provided services through 150 
nonprofit community and faith-based organizations at 1,800 sites 
located in 39 States, the District of Columbia, and two Indian tribal 
organizations (Red Lake, Minnesota, and Oglala Sioux, South Dakota). On 
behalf of those organizations NCSFPA would like to express our 
gratitude for the increased fiscal year 2010 funding that has allowed 
CSFP to begin in seven new States, Arkansas, Delaware, Georgia, Maine, 
New Jersey, Oklahoma, and Utah, and has also resulted in a significant 
increase in the number of individuals who are now able to participate 
in the program in the other CSFP States.
    CSFP's 42 years of service is a testimony to the power of community 
partnerships of faith-based organizations, farmers, private industry, 
and Government agencies. The CSFP offers a unique combination of 
advantages unparalleled by any other food assistance program:
  --CSFP specifically targets our Nation's most nutritionally 
        vulnerable populations--young children and low-income seniors, 
        many of whom may not qualify for other nutrition assistance 
        programs.
  --CSFP provides a monthly selection of food packages tailored to 
        specific nutritional needs. The nutritional content of the food 
        provided has improved with the introduction of low-fat cheese, 
        whole grain products, canned fruits packed in fruit juice, and 
        low-salt canned vegetables.
  --CSFP purchases foods at wholesale prices, directly supporting 
        American farmers. The average food package cost is estimated at 
        $19.26 while the retail value is $50.
  --The CSFP involves the entire community. Thousands of volunteers and 
        private companies donate money, equipment, and, most 
        importantly, time and effort to deliver food to needy and 
        homebound seniors. These volunteers not only bring food but 
        companionship and other assistance to seniors who might have 
        limited support systems.
    In a recent CSFP survey, more than one-half of seniors living alone 
reported an income of less than $750 per month. One-half of respondents 
from two-person households reported an income under $1,000 per month. 
Twenty-five percent were enrolled in the Supplemental Nutrition 
Assistance Program (SNAP) and 50 percent said they ran out of food 
during the month. Seventy percent of senior respondents said they 
choose between medicine and food.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging it as a cost-effective way of providing 
nutritious supplemental foods. The Congress provided funding to meet 
the rising need among the elderly in the fiscal year 2010 
appropriation. While USDA's budget request will provide adequate 
resources for our monthly caseload of 604,931 mothers, children, and 
seniors, we urge the subcommittee to strongly consider our request for 
funding to allow six additional States to begin providing nutritional 
assistance to their vulnerable seniors as well as granting us 
sufficient funding to meet the increasing need in the 39 current CSFP 
States.
    CSFP and other nutrition programs, such as SNAP, are only 
supplemental programs by design. Together they cover a shortfall that 
many seniors face each month. These programs must have support to meet 
the increasing need as part of the ``safety net.''

    ``The Managers fully support continued operation of this program 
and recognize the need for a substantial expansion of CSFP . . .  the 
Managers encourage the Secretary to approve all remaining [S]tates for 
expansion and to expand caseload in all participating [S]tates.'' 
(Joint Statement of Managers, H.R. 2419, the Food, Conservation and 
Energy Act of 2008.)

    ``CSFP has charms worth considering in designing human service 
programs . . .  the program's trademarks were its simplicity and 
accessibility . . .  CSFP in particular represents a guaranteed source 
of high quality food, delivered in a balanced package.'' (``The Role of 
CSFP in Nutritional Assistance to Mothers, Infants, Children and 
Seniors'', The Urban Institute, August 2008.)

    NCSFPA requests the following:

                         In millions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
To continue serving our monthly caseload of 604,931 needy       $176.788
 seniors (97 percent of participants), women, infants, and
 children (3 percent of participants)......................
Respond to six States (Connecticut, Hawaii, Idaho,                 5.000
 Maryland, Massachusetts, and Rhode Island) requesting
 assistance in serving its vulnerable senior population....
To meet the increasing demand/need. Feed an additional            25.800
 114,718 at risk seniors in 39 States per requests turned
 in to USDA by CSFP operators nationwide...................
                                                            ------------
      Total fiscal year 2012 request.......................      207.588
------------------------------------------------------------------------

    A 1997 report by the National Policy and Resource Center on 
Nutrition and Aging at Florida International University, Miami--``Elder 
Insecurities: Poverty, Hunger, and Malnutrition'' indicated that 
malnourished elderly patients experience 2 to 20 times more medical 
complications, have up to 100-percent longer hospital stays, and incur 
hospital costs $2,000 to $10,000 higher per stay. Proper nutrition 
promotes health, treats chronic disease, decreases hospital length of 
stay, and saves healthcare dollars. America is aging. CSFP must be an 
integral part of senior nutrition policy and plans to support the 
productivity, health, independence, and quality of life for America's 
seniors, many of whom now need to continue working at least part-time 
beyond retirement age to afford basics.
    The CSFP is committed grassroots operators and dedicated volunteers 
with a mission to provide quality nutrition assistance economically, 
efficiently, and responsibly always keeping the needs and dignity of 
our participants first. We commend the Food Distribution Division of 
Food and Nutrition Service of the USDA for their continued innovations 
to strengthen the quality of the food package and streamline 
administration.
                                 ______
                                 
   Prepared Statement of the New Mexico Interstate Stream Commission

    The Congress authorized the Colorado River Basin Salinity Control 
Program (CRBSCP) in the Colorado River Basin Salinity Control Act of 
1974 (CRBSCA). The Congress amended the act in 1984 to give new 
responsibilities to the U.S. Department of Agriculture (USDA). While 
retaining the Department of the Interior as the lead coordinator for 
CRBSCP, the amended act recognized the importance of USDA efforts in 
meeting the objectives of CRBSCP. Many of the most cost-effective 
salinity control projects to date have occurred since implementation of 
the USDA's authorization for CRBSCP.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to U.S. water users are about $350 million per year. 
Unquantified damages are significantly greater. Damages are estimated 
at $75 million per year for every additional increase of 30 milligrams 
per liter in salinity of the Colorado River. It is essential that USDA 
salinity control projects be funded for timely implementation to 
protect the quality of Colorado River Basin water delivered to the 
lower Basin States and Mexico.
    The Congress directed, with the enactment the Federal Agricultural 
Improvement and Reform Act of 1996 (FAIRA), that CRBSCP should continue 
to be implemented as a component of the Environmental Quality 
Incentives Program (EQIP). However, until 2004, CRBSCP was not funded 
at an adequate level to protect the Basin State-adopted and 
Environmental Protection Agency (EPA)-approved water quality standards 
for salinity in the Colorado River. Appropriations for EQIP prior to 
2004 were insufficient to adequately control salinity impacts from 
water delivered to the downstream States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the USDA to implement salinity 
control measures per section 202(c) of CRBSCA. The EQIP evaluation and 
project ranking criteria targeted small watershed improvements and did 
not recognize that water users hundreds of miles downstream are 
significant beneficiaries of the salinity control program. Proposals 
for EQIP funding were ranked in the States of Utah, Wyoming, and 
Colorado under the direction of the respective State conservationists 
without consideration of those downstream, particularly out-of-State, 
benefits.
    Following recommendations of the Basin States to address the 
funding problem, the USDA's Natural Resources Conservation Service 
(NRCS) designated the Colorado River Basin an ``area of special 
interest'' and earmarked funds for CRBSCP. NRCS concluded that the 
salinity control program is different from the small watershed approach 
of EQIP. The watershed for CRBSCP stretches more than 1,200 miles from 
the headwaters of the river through the salt-laden soils of the upper 
basin to the river's termination at the Gulf of California in Mexico. 
NRCS is to be commended for its efforts to comply with the USDA's 
responsibilities under CRBSCA, as amended. Irrigated agriculture in the 
upper basin realizes significant local benefits of improved irrigation 
practices, and agricultural producers have succeeded in submitting 
cost-effective proposals to NRCS.
    Years of inadequate Federal funding for EQIP since the 1996 
enactment of FAIRA and prior to 2004 resulted in the need to accelerate 
the salinity control program in order to maintain the criteria of the 
Colorado River Water Quality Standards for Salinity. With the enactment 
of the Farm Security and Rural Investment Act in 2002, an opportunity 
to adequately fund the salinity control program now exists. The 
requested funding of 2.5 percent of the EQIP funding will continue to 
be needed each year for at least the next few fiscal years.
    State and local cost-sharing is triggered by and indexed to the 
Federal appropriation. In fiscal year 2012, it is anticipated that the 
States will cost-share about $8 million and local agricultural 
producers will add more than $7 million, resulting in contributions for 
more than 40 percent of the total program costs.
    USDA salinity control projects have proven to be a cost-effective 
component of the salinity control program. USDA has indicated that a 
more adequately funded EQIP program would result in more funds being 
allocated to the salinity program. The Basin States have cost-sharing 
dollars available to participate in on-farm salinity control efforts. 
The agricultural producers in the upper basin are willing to cost-share 
their portion and are awaiting funding for their applications to be 
considered.
    The Basin States expend 40 percent of the State funds allocated for 
CRBSCP for essential NRCS technical assistance and education 
activities. Previously, the Federal part of the salinity control 
program funded through EQIP failed to adequately fund NRCS for these 
activities, which has been shown to be an impediment to accomplishing 
successful implementation of the salinity control program. 
Acknowledgement by the administration that technical assistance and 
education activities must be better funded has encouraged the Basin 
States and local producers that cost-share with EQIP. I request that 
adequate funds be appropriated to NRCS technical assistance and 
education activities directed to the salinity control program 
participants.
    I urge the Congress to appropriate at least $1 billion in fiscal 
year 2012 for EQIP. Also, I request that 2.5 percent of the EQIP 
appropriation be designated for CRBSCP.
                                 ______
                                 
        Prepared Statement of Pickle Packers International, Inc.

    The pickled vegetable industry strongly supports and encourages 
your subcommittee in its work of maintaining and guiding the 
Agricultural Research Service. To accomplish the goal of improved 
health and quality of life for the American people, the health action 
agencies of this country continue to encourage increased consumption of 
fruits and vegetables in our diets. Accumulating evidence from the 
epidemiology and biochemistry of heart disease, cancer, diabetes, and 
obesity supports this policy. Vitamins (particularly A, C, and folic 
acid), minerals, and a variety of antioxidant phytochemicals in plant 
foods are thought to be the basis for correlation's between high fruit 
and vegetable consumption and reduced incidence of these debilitating 
and deadly diseases. The problem is that many Americans choose not to 
consume the variety and quantities of fruits and vegetables that are 
needed for better health.
    As an association representing processors that produce more than 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population that is encouraged to eat more vegetables. The profit 
margins of growers continue to be narrowed by foreign competition. 
Likewise, the people of this country represent an ever-broadening array 
of expectations, tastes, and preferences derived from many cultural 
backgrounds. Everyone, however, faces the common dilemma that food 
costs should remain stable and preparation time continues to be 
squeezed by the other demands of life. This industry can grow by 
meeting these expectations and demands with reasonably priced products 
of good texture and flavor that are high in nutritional value, low in 
negative environmental impacts, and produced with assured safety from 
pathogenic microorganisms and from those who would use food as a 
vehicle for terror. With strong research to back us up, we believe our 
industry can make a greater contribution toward reducing product costs 
and improving human diets and health for all economic strata of U.S. 
society.
    Many small- to medium-sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (sauerkraut), and Brussels sprouts, which 
are referred to as minor crops. None of these crops is in any commodity 
program and as such, do not rely upon taxpayer subsidies. However, 
current farm value for just cucumbers, onions, and garlic is $2.4 
billion with an estimated processed value of $5.8 billion. These crops 
represent important sources of income to farmers, and the processing 
operations are important employers in rural communities around the 
United States. Growers, processing plant employees, and employees of 
suppliers to this industry reside in all 50 States. To realize its 
potential in the rapidly changing American economy, this industry will 
rely upon a growing stream of appropriately directed basic and applied 
research from four important research programs within the Agricultural 
Research Service. These programs contribute directly to top research 
priorities that the Research, Education, and Economic mission area of 
the U.S. Department of Agriculture (USDA) has identified in that they 
develop vegetable crop germplasm and preservation technology that 
contributes to improved profitability with reduced pesticide inputs in 
a safer, higher quality product grown by rural farm communities across 
the United States, consequently improving food security and food 
safety. Improved germplasm, crop management practices, and processing 
technologies from these projects have measurably contributed to the 
profitability, improved nutritional value, and increased consumption of 
affordable vegetable crops for children and adults in America and 
around the world.

        VEGETABLE CROPS RESEARCH LABORATORY, MADISON, WISCONSIN

    The USDA/ARS Vegetable Crops Research Lab at the University of 
Wisconsin is the only USDA research unit dedicated to the genetic 
improvement of cucumbers, carrots, onions, and garlic. Three scientists 
in this unit account for approximately one-half of the total U.S. 
public breeding and genetics research on these crops. Their past 
efforts have yielded cucumber, carrot, and onion cultivars and breeding 
stocks that are widely used by the U.S. vegetable industry (i.e., 
growers, processors, and seed companies). These varieties account for 
more than one-half of the farm yield produced by these crops today. All 
U.S. seed companies rely upon this program for developing new 
varieties, because ARS programs seek to introduce economically 
important traits (e.g., virus and nematode resistance) not available in 
commercial varieties using long-term high risk research efforts. The 
U.S. vegetable seed industry develops new varieties of cucumbers, 
carrots, onions, and garlic and more than 20 other vegetables used by 
thousands of vegetable growers. The U.S. vegetable seed, grower, and 
processing industry, relies upon the USDA/ARS Vegetable Crops Research 
Lab for unique genetic stocks to improve varieties in the same way the 
U.S. healthcare and pharmaceutical industries depend on fundamental 
research from the National Institutes of Health. Their innovations meet 
long-term needs and bring innovations in these crops for the U.S. and 
export markets, for which the United States has successfully competed. 
Past accomplishments by this USDA group have been cornerstones for the 
U.S. vegetable industry that have resulted in increased profitability, 
and improved product nutrition and quality.
    Both consumers and the vegetable production and processing industry 
would like to see fewer pesticides applied to food and into the 
environment in a cost-effective manner. Scientists in this unit have 
developed genetic resistance for many major vegetable diseases that are 
perhaps the most important threat to sustained production of a 
marketable crop for all vegetables. Genetic resistance assures 
sustainable crop production for growers and reduces pesticide residues 
in our food and environment. Value of this genetic resistance developed 
by the vegetable crops unit is estimated at $670 million per year in 
increased crop production, not to mention environmental benefits due to 
reduction in pesticide use. New research in Madison has resulted in 
cucumbers with improved disease resistance, pickling quality, and 
suitability for machine harvesting. New sources of genetic resistance 
to viral and fungal diseases, environmental stress resistance like heat 
and cold, and higher yield have recently been mapped on cucumber 
chromosomes to provide a ready tool for our seed industry to 
significantly accelerate the development of resistant cultivars for 
U.S. growers. Nematodes in the soil deform carrot roots to reduce yield 
from 10 percent to more than 70 percent in major production areas. A 
new genetic resistance to nematode attack was found to almost 
completely protect the carrot crop from one major nematode. This group 
improved both consumer quality and processing quality of vegetables 
with a resulting increase in production efficiency and consumer appeal. 
Baby carrots were founded on germplasm developed in Madison, Wisconsin. 
Carrots provide approximately 30 percent of the U.S. dietary vitamin A. 
New carrots have been developed with tripled nutritional value, and 
nutrient-rich cucumbers have been developed with increased levels of 
provitamin A. Using new biotechnological methods, a system for rapidly 
and simply identifying seed production ability in onions has been 
developed that reduces the breeding process up to 6 years. A genetic 
map of onion flavor and nutrition will be used to develop onions that 
are more appealing and healthy for consumers.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets could certainly be enhanced. Genetic improvement of 
all the attributes of these valuable crops are at hand through the 
unique USDA lines and populations (i.e., germplasm) that are available 
and the new biotechnological methodologies that are being developed by 
the group. The achievement of these goals will involve the utilization 
of a wide range of biological diversity available in the germplasm 
collections for these crops. Classical plant breeding methods combined 
with biotechnological tools such as DNA marker-assisted selection and 
genome maps of cucumber, carrot, and onion will be used to implement 
these genetic improvements. With this, new high-value vegetable 
products based upon genetic improvements developed by our USDA 
laboratories can offer vegetable processors and growers expanded 
economic opportunities for U.S. and export markets.

       U.S. FOOD FERMENTATION LABORATORY, RALEIGH, NORTH CAROLINA

    The USDA/ARS Food Fermentation Laboratory in Raleigh, North 
Carolina is the major public laboratory that this industry looks to for 
new scientific information on the safety of our products and 
development of new processing technologies related to fermented and 
acidified vegetables. Over the years, this laboratory has been a source 
for innovations which have helped this industry remain competitive in 
the current global trade environment. We expect the research done in 
this laboratory to lead to new processing and product ideas that will 
increase the economic value of this industry and provide consumers with 
safe, high-quality, and healthful vegetable products.
    We seek additional funding to support two new research initiatives 
for this laboratory that have substantial economic potential for our 
industry and health benefits for the American public. These are:
  --adaptation of a more efficient heating technology, such as 
        microwave processing, to replace the current tunnel 
        pasteurizers in order to reduce the energy and water use 
        required for heat processing acidified vegetables; and
  --development of techniques to deliver living probiotic 
        microorganisms to consumers in fermented or acidified vegetable 
        products.
    Nearly all pickled vegetables in the aisles of your super market 
are heated (pasteurized) so they are shelf stable at room temperature. 
Current steam and water bath pasteurizer technologies, which were 
developed in the 1940s and 1950s, have been very successful in that 
there has never been an outbreak of illness caused by commercially 
processed fermented or acidified vegetables. However, these current 
processing technologies are not efficient in the use of energy or water 
resources. Rising costs for energy and limits on water use require that 
major improvements be made in the way we heat process our products. 
There are three promising approaches that could benefit the broad range 
of products and sizes of companies that constitute the membership of 
Pickle Packers International. First, is to develop practical ways to 
preheat and pack vegetables to reduce or even eliminate the residence 
time required in current pasteurizers. Second, is to adapt newer 
thermal processing technologies, particularly microwave heating, to our 
products. Third, is to modify containers and product ingredients such 
that less heat and associated water use is required to assure killing 
of pathogenic bacteria and other spoilage microorganisms. Modifications 
of processes require strong scientific justification to assure 
ourselves, FDA, and the public that safety and quality will be 
maintained. In concert with any new processing technologies adequate 
process verification methods to assure process control and acceptance 
of our processes by FDA must be developed and validated. The objective 
is to have energy-efficient, low water use, and scientifically 
validated thermal processing technologies for commercial preservation 
of acidified vegetables.
    Most of what we hear about bacteria in foods concerns the pathogens 
that cause disease. However, lactic acid bacteria are intentionally 
grown in fermented foods because they are needed to give foods like 
sauerkraut, yoghurt, cheeses, and fermented salami the characteristic 
flavors and textures that we desire. There is a growing body of 
research to indicate that certain living lactic acid bacteria are 
``pro-biotic'' in that they improve human health by remaining in the 
intestinal tract after they are consumed. Fermented or acidified 
vegetables may be a good way to deliver such probiotic bacteria to 
consumers. The objective will be to identify probiotic lactic acid 
bacteria that can survive in high numbers in selected vegetable 
products and investigate the potential for using vegetables as 
healthful delivery vehicles for probiotic organisms.

       SUGAR BEET AND BEAN RESEARCH UNIT, EAST LANSING, MICHIGAN

    Quality inspection and assurance for pickling vegetables is needed 
at many points from the field through postharvest processing to final 
packaging and marketing. Accurate quality assessment methodologies and 
techniques are critical to growers and processors and ultimately 
consumers of pickling vegetables. While automated quality inspection 
systems are currently used in many pickle processing facilities, they 
are largely confined to inspecting product surface quality 
characteristics. There exists considerable room for improving current 
technologies and developing new and more efficient sensors and 
automated inspection methods, especially for internal quality 
assessment and grading of pickling vegetables and pickled products. 
Moreover, labor required for postharvest handling and processing 
operations represents a significant portion of the total production 
cost. Development of new and/or improved technologies can help growers 
and processors assess, inspect, and grade pickling vegetables and 
pickled products rapidly and accurately for internal and external 
quality characteristics so that they can be directed to, or removed 
from, appropriate processing or marketing avenues. This will minimize 
postharvest losses of food that has already been produced, ensure high-
quality, consistent final product and end-user satisfaction, and reduce 
production cost.
    The USDA/ARS Sugarbeet and Bean Research Unit at East Lansing, 
Michigan provides national leadership in research and development of 
innovative technologies and systems for assessing and assuring quality 
and marketability of tree fruits and pickling vegetables and enhancing 
production efficiency. Over the years, the Unit has developed a number 
of innovative engineering technologies for rapid, nondestructive 
measurement and inspection of postharvest quality of tree fruits and 
vegetables, including a novel spectral scattering technology for 
assessing the texture and flavor of fruits, a portable fruit firmness 
tester, and a spectral property measuring instrument for quality 
evaluation of fruits and vegetables. Recently, it also developed an 
advanced hyperspectral imaging system for automated detection of 
internal and external quality of pickling cucumbers and pickles. 
Research at East Lansing will continue to provide the pickling 
vegetable industry a vital source of innovative inspection and grading 
technology to assure high-quality safe products to the marketplace and 
achieve labor cost savings. Therefore, it is critical that additional 
resources be provided to support and expand the existing program to 
effectively address the technological needs for the pickling industry.

         U.S. VEGETABLE LABORATORY, CHARLESTON, SOUTH CAROLINA

    The research program at the USDA/ARS Vegetable Laboratory in 
Charleston, South Carolina, addresses national problems in vegetable 
crop production and protection with emphasis on the Southeastern United 
States. This research program is internationally recognized for its 
accomplishments, which have resulted in development of more than 150 
new vegetable varieties and lines along with the development of many 
new and improved disease and pest management practices.
    This laboratory's program currently addresses 14 vegetable crops 
including those in the cabbage, cucumber, and pepper families, which 
are of major importance to the pickling industry. The mission of the 
laboratory is to:
  --develop disease and pest-resistant vegetable crops; and
  --develop new, reliable, environmentally sound disease and pest 
        management programs that do not rely on conventional 
        pesticides.
    Continued expansion of the Charleston program is crucial. Vegetable 
growers depend heavily on synthetic pesticides to control diseases and 
pests. Cancellation and/or restrictions on the use of many effective 
pesticide compounds are having a considerable influence on the future 
of vegetable crop production. Without the use of certain pesticides, 
growers will experience crop failures unless other effective, 
nonpesticide control methods are found quickly. The research on 
improved, more efficient and environmentally compatible vegetable 
production practices and genetically resistant varieties at the U.S. 
Vegetable Laboratory continues to be absolutely essential. This gives 
U.S. growers the competitive edge they must have to sustain and keep 
this important industry and allow it to expand in the face of 
increasing foreign competition. Current cucumber varieties are highly 
susceptible to a new strain of the downy mildew pathogen; this new 
strain has caused considerable damage to commercial cucumber production 
in some South Atlantic and Midwestern States during the past 5 years, 
and a new plant pathologist position needs to be established to address 
this critical situation.

                      FUNDING NEEDS FOR THE FUTURE

    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the United States now enjoys and to 
increase funding levels as warranted by planned expansion of research 
projects to maintain U.S. competitiveness. We also understand that 
discretionary funds are now used to meet the rising fixed costs 
associated with each location. Additional funding is needed at the 
Wisconsin and South Carolina programs for genetic improvement of crops 
essential to the pickled vegetable industry, and at North Carolina and 
Michigan for development of environmentally sensitive technologies for 
improved safety and value to the consumer of our products. The 
fermented and acidified vegetable industry is receptive to capital 
investment in order to remain competitive, but only if that investment 
is economically justified. The research needed to justify such capital 
investment involves both short-term (6-24 months) and long-term (2-10 
years or longer) commitments. The diverse array of companies making up 
our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness. The 
pickled vegetable industry currently supports research efforts at 
Wisconsin and North Carolina and anticipates funding work at South 
Carolina and Michigan as scientists are put in place. Donations of 
supplies and processing equipment from processors and affiliated 
industries have continued for many years.

U.S. Vegetable Laboratory, Charleston, South Carolina
    New funds are needed to establish a plant pathology position to 
address cucumber diseases, especially the disease caused by a new 
strain of the downy mildew pathogen that has caused extensive damage to 
cucumber production in some South Atlantic and Midwestern States during 
the past 5 years. The plant pathologist is needed to characterize 
pathogen strains using molecular methodologies and to develop new 
management approaches and resistant cucumber lines. This new plant 
pathologist position will greatly contribute to the accomplishment of 
research that will provide for the effective protection of cucumbers 
from disease without the use of conventional pesticides. This position 
will require a funding level of $500,000 for its establishment.

------------------------------------------------------------------------
    New scientific staff needed         Current status     Funds needed
------------------------------------------------------------------------
Plant pathologist (cucumber          Needed.............        $500,000
 disease).
                                                         ---------------
      New funds needed.............  ...................         500,000
------------------------------------------------------------------------

Food Fermentation Laboratory, Raleigh, North Carolina
    The current funding for the laboratory is $1,264,000. To carry out 
the new research initiatives to reduce the energy and water use 
required to produce safe, high-quality products and to develop systems 
to deliver probiotic lactic acid bacteria in acidified and fermented 
vegetable products, we request additional support for the Food 
Fermentation Laboratory of $300,000 in fiscal year 2012. This will 
provide support for postdoctoral or predoctoral research associates 
along with necessary equipment and supplies to develop these new areas 
of research.

------------------------------------------------------------------------
          Scientific staff              Current status     Funds needed
------------------------------------------------------------------------
Microbiologist.....................  Active.............        $316,000
Chemist............................  Active.............         316,000
Food technologist/biochemist.......  Active.............         316,000
Microbial physiologist.............  Active.............         316,000
Fiscal year 2012 postdoctoral and    Needed.............         300,000
 predoctoral research associate.
                                                         ---------------
      Total funding required.......  ...................       1,564,000
                                                         ---------------
Presidential budget (fiscal year     ...................       1,264,000
 2012).
                                                         ---------------
      New funds needed.............  ...................         300,000
------------------------------------------------------------------------

Vegetable Crops Research Laboratory Unit, Madison, Wisconsin
    Current base funding for three scientists is $893,150, of which 
$200,000 was added in fiscal year 2002. Emerging diseases, such as 
downy mildew of cucumber, threaten production of the crop in all 
production areas. Therefore, we request an additional $531,850 to fully 
fund the scientists and support staff in fiscal year 2012, including 
graduate students and postdoctorates for new research searching for 
genetic resistance to emerging diseases.

------------------------------------------------------------------------
     Scientific staff in place          Current status     Funds needed
------------------------------------------------------------------------
Geneticist.........................  Active.............        $375,000
Geneticist.........................  Active.............         375,000
Geneticist.........................  Active.............         375,000
Fiscal year 2012 postdoctoral or     Needed.............         300,000
 predoctoral research associates.
                                                         ---------------
      Total funding required.......  ...................       1,425,000
                                                         ---------------
Presidential budget (fiscal year     ...................         893,150
 2012).
                                                         ---------------
      New funds needed.............  ...................         531,850
------------------------------------------------------------------------

Sugar Beet and Bean Research Unit, East Lansing, Michigan
    Current base funding for the location is $190,000, which is far 
short of the funding level needed to carry out research on inspection, 
sorting, and grading of pickling cucumbers and other vegetable crops to 
assure the processing and keeping quality of pickled products. An 
increase of $550,000 in the current base funding level would be needed 
to fund the research engineer position.

------------------------------------------------------------------------
     Scientific staff in place          Current status     Funds needed
------------------------------------------------------------------------
Postdoctoral research associate....  Active.............        $190,000
Research engineer..................  Needed.............         550,000
                                                         ---------------
      Total funding required.......  ...................         740,000
                                                         ---------------
Current funding....................  ...................         190,000
                                                         ---------------
      New funds needed.............  ...................         550,000
------------------------------------------------------------------------

    Thank you for your consideration and expression of support for the 
USDA/ARS.
                                 ______
                                 
     Prepared Statement of the Society for Women's Health Research

    The Society for Women's Health Research (SWHR) is pleased to submit 
written testimony to urge the subcommittee to increase the 
congressional appropriation to the Food and Drug Administration (FDA) 
by $382 million for fiscal year 2012. This allocation will allow the 
agency to provide necessary and critical improvements in 
infrastructure, address resource shortages, and support needed 
investment into the Office of Women's Health (OWH), the focal point on 
women's health within the agency.
    Insufficient investment in this important agency prevents the FDA 
from fully achieving its mission and threatens the health, economic, 
and national security of the Nation. While SWHR recognizes the need for 
responsible discretionary spending, proper and sustained funding of the 
FDA must remain a public priority. The administration's fiscal year 
2012 increase of $382 million to FDA reflects the agency's increased 
responsibilities and workload.
    Appropriate funding of the FDA by the Congress is vital for it to 
fulfill its mission. Americans rely on the FDA every day, from 
promoting wellness and meeting healthcare needs to ensuring the food 
supply and keeping drugs safe and effective. Altogether, 25 percent of 
every consumer $1 spent in America is spent on products regulated by 
the FDA.
    This level of investment will allow the FDA to foster a 21st 
century culture of proactive science and research leadership that will 
better meet the demands and expectations of the American public. Each 
year, more than 80 percent of FDA's budget is allocated toward the 
salary of its scientists and staff, making a substantial investment in 
infrastructure needs, technology, and human collateral all but 
impossible. Until the budgetary allocation from the Congress is enough 
to allow FDA to invest in staffing and infrastructure needs, the FDA 
will continue to act in a reactionary manner against the emerging or 
known threats to food and drug security.

                    FDA AND SEX DIFFERENCES RESEARCH

    In the past decades, scientists have uncovered significant 
biological and physiological differences between men and women. Sex 
differences have been found everywhere, from the composition of bone 
matter to the metabolism of certain drugs, to the rate of 
neurotransmitter synthesis in the brain. Sex-based biology, the study 
of biological and physiological differences between men and women, has 
revolutionized the way that the scientific community views the sexes. 
America's drug development process continues to advance in delivering 
new and better targeted medications to combat disease; however, 
medication effectiveness and safety could be better targeted to women 
and men if analysis of sex and gender differences would be done 
routinely during review processes at FDA.
    SWHR has long recognized that the inclusion of women in study 
populations by itself was insufficient to address the inequities in our 
knowledge of human biology and medicine, and that only by the careful 
study of sex differences at all levels, from genes to behavior, would 
science achieve the goal of optimal healthcare for both men and women. 
Many sex differences are already present at birth, whereas others 
develop later in life. These differences play an important role in 
disease susceptibility, prevalence, time of onset, and severity and 
have documented roles in cancer, obesity, heart disease, immune 
dysfunction, mental health disorders, and other illnesses. 
Physiological differences and hormonal fluctuations may also play a 
role in the rate of drug absorption, distribution, metabolism, 
elimination, as well as ultimate effectiveness of response in females 
as opposed to males. This vital research is supported and encouraged by 
the OWH at FDA, working directly with the various centers to advance 
the science in this area, collaborating on programs, projects, and 
research.
    Unfortunately, FDA's requirement that the data acquired during 
research of a new drug or device's safety and efficacy be reported and 
analyzed as a function of sex is not universally enforced.
    Information about the ways drugs may differ in various populations 
(e.g., women may require a lower dosage because of different rates of 
absorption or metabolism) are often unexplored, or female enrollment in 
studies is too low to adequately power statistically significant 
results. As a result, this information is not able to be transmitted to 
healthcare providers and the potential benefit of a more appropriate 
medical option is not available to the patient, man or woman.
    SWHR believes that the opportunity to translate this information to 
patients exists now. Sex differences data discovered from clinical 
trials can be presented to the medical community and to patients 
through education, drug labeling, and packaging inserts, and other 
forms of alerts directed to key audiences. SWHR encourages the FDA to 
continue addressing the need for accurate, sex-specific drug and device 
labeling to better serve male and female patients, as well as to ensure 
that appropriate data analysis of postmarket surveillance reporting for 
these differences is placed in the hands of physicians and ultimately 
the patient.

       FDA MUST IMPROVE ITS INFORMATION TECHNOLOGY INFRASTRUCTURE

    The FDA is tasked with guarding the safety, efficacy, and security 
of human drugs, biological products, and medical devices, yet still 
does not have sufficient resources to establish and maintain the 
information technology needed to appropriately analyze the information 
that FDA receives. This lack of appropriate information technology (IT) 
systems inhibits the FDA from fulfilling its mission and prevents 
appropriate sex differences analysis from being conducted. A 2007 
Science Board Report, requested by former Commissioner von Eschenbach, 
found that FDA's IT systems were inefficient and incapable of handling 
the current demands placed on the agency.
    Tremendous advances have been made throughout the agency to 
modernize in the 4 years since that initial report; however, it still 
remains a challenge for the agency to access and maintain the 
information technology needed to meet the growing expectations from the 
American public and to fulfill its mission. As technology continues to 
advance, congressional investment in FDA must remain robust.
    FDA is expected by the Congress and the American public to have IT 
systems that can quickly and effectively do appropriate data analyses 
and reporting, safety analyses, tracking the natural history and 
disease models for rare disorders, analyses of subpopulations within 
the context of larger trials or comparative effectiveness research 
(CER), access large amounts of clinical data, capture emerging trends, 
and determine food and drug safety when a problem impacting the public 
breaks out.
FDA Must Create a Centralized Database
    The creation of a central database would provide a single 
repository for all relevant facts about a certain product, including 
where, when, and how the product was made. Such a database will be 
relevant for all information stored across agencies, so as to maximize 
functionality not only of FDA's data but for any other research and 
analysis needed by the American public for safety and surveillance. 
This database should allow for easier tracking of recruitment and 
retention rates of women and minorities in clinical trials, which will 
allow the FDA to monitor and collect data on how drugs, devices and 
biologics affect men and women differently, and allow for sex 
differences to be analyzed during the drug review process.
    FDA IT systems must encourage electronic submissions and be able to 
handle all applications in an electronic format. FDA must move away 
from a paper-based system into a standardized electronic format. This 
will aid in transforming agency reviews, CER, and further data analysis 
and reporting, such as sex differences.

                      FDA OFFICE OF WOMEN'S HEALTH

    The FDA's OWH, like the agency that houses it, also needs steady 
and sustained investment to remain a key resource advocating for this 
important research. OWH at the FDA, established in 1994, plays a 
critical role in women's health, both within and agency and as an 
information source to the public.
    OWH's programs, often conducted with the agency centers, focus on 
women's health within the FDA and are critical to improving care and 
increased awareness of disease-specific impacts on women. OWH works to 
ensure that sex and gender differences in the efficacy of drugs (such 
as metabolism rates), devices (sizes and functionality) and diagnostics 
are taken into consideration in reviews and approvals, but they cannot 
fix the problem alone. Additionally, OWH endeavors to correct sex and 
gender disparities in the areas for which the FDA has jurisdiction and 
also monitors women's health priorities, providing both leadership and 
an integrated approach to problem solving across the FDA. OWH continues 
to provide women with invaluable tools for their health
    To address OWH's growing list of priorities, SWHR recommends that 
the Congress support an additional $1 million budget for OWH for fiscal 
year 2012 within the budget for the FDA. Each year, OWH exhausts its 
budget. OWH's pamphlets are the most requested of any documents at the 
Government Printing Office facility in Colorado. More than 5 million 
OWH pamphlets have been distributed to women across America, including 
target populations such as Hispanic communities, seniors, and low-
income citizens. Last year, the OWH funded more than 18 research 
studies on conditions ranging from sex and racial disparities in Swam-
Ganz balloon flotation pulmonary artery catheters to assessment of 
outcomes and bleeding complications following drug eluting stents and 
dual anti-platelet therapy.
    The value-added with congressional investment in FDA's OWH is 
clear. The office provides women with the high-quality and timely 
information that American women need to make medical decisions on 
behalf of them and their families. Further, OWH's Web site is a vital 
tool for consumers and is regularly updated to include new and 
important health information. The Web site provides free, downloadable 
fact sheets on more than 100 different illnesses, diseases, and health-
related issues for women. OWH has created medication charts on several 
chronic diseases, listing all the medications that are prescribed and 
available for each disease. This type of information is ideal for women 
to use in talking to their doctors, pharmacists, or nurses about their 
treatment options. Such resources need to be updated, evaluated, and 
disseminated to further impact improvements in women's health. OWH has 
collaborated with Pharmacy Choice, Inc. to create a Web portal solely 
dedicated to FDA consumer health education materials, providing access 
to fact sheets and medication guides. In keeping with current 
technology trends, OWH has used social media networks like Twitter to 
reach out to consumers.

         OFFICE OF WOMEN'S HEALTH AND SEX DIFFERENCES RESEARCH

    OWH funds high-quality scientific research to serve as the 
foundation for FDA activities that improve women's health. Since 1994, 
OWH has funded approximately 195 research projects with approximately 
$15.7 million in intramural grants, supporting projects within the FDA 
that address knowledge gaps or set new directions for sex and gender 
research. All contracts and grants are awarded through a competitive 
process and a large number are published in peer reviewed journals. It 
is critical for the Congress to help preserve the vital functions of 
OWH and to ensure that its budget is dedicated to the resource needs of 
the office and to the projects, programs, and research it funds.
    In conclusion, Mr. Chairman, we thank this subcommittee for its 
strong record of support for the FDA and women's health. SWHR 
recommends for fiscal year 2012 that you appropriate the $382 million 
increase for the FDA provided in the administration's request so that 
the FDA may dramatically improve upon current operations and to improve 
its staffing and infrastructure needs. Second, we urge you to allocate 
$7 million for OWH for fiscal year 2012, and to ensure that future 
budget appropriations for the OWH never fall below fiscal year 2010 
funding levels of $6 million.
    We look forward to continuing to work with the subcommittee to 
build a stronger, healthier, and safer future for all Americans.
                                 ______
                                 
     Prepared Statement of The Humane Society of the United States

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to your subcommittee on 
fiscal year 2012 items of great importance to The Humane Society of the 
United States (HSUS) and its 11 million supporters nationwide. In this 
testimony, we request the following assistance for the following U.S. 
Department of Agriculture (USDA) accounts:
  --Food Safety and Inspection Service (FSIS)/Humane Methods of 
        Slaughter Act (HMSA) Enforcement.--Language directing FSIS to 
        ensure that 23 inspectors hired through $2 million appropriated 
        in fiscal year 2009 for improved humane handling focus their 
        attention on overseeing compliance with humane handling rules 
        for live animals as they arrive and are offloaded and handled 
        in pens, chutes, and stunning areas.
  --FSIS/Horse Slaughter.--Language mirroring fiscal year 2010 
        provision.
  --Animal and Plant Health Inspection Service (APHIS)/Horse Protection 
        Act Enforcement.--$900,000.
  --APHIS/Animal Welfare Act Enforcement.--$28,587,000.
  --APHIS/Investigative and Enforcement Services.--$17,275,000.
  --Office of Inspector General (OIG)/Including Animal Fighting 
        Enforcement.--$90,700,000.
  --National Institute of Food and Agriculture (Formerly Cooperative 
        State Research, Education, and Extension Service)/Veterinary 
        Student Loan Forgiveness.--$4,800,000.
  --APHIS/Emergency Management Systems/Disaster Planning for Animals.--
        $1,017,000.
  --APHIS/Wildlife Services.--Funding limitation on use of two 
        particularly toxic poisons.
  --National Agriculture Library/Animal Welfare Information Center.--
        $1,978,400.
    At this time of intense budget pressure, we thank you for your 
outstanding past support for enforcement of key animal welfare laws by 
the USDA and we urge you to sustain this effort in fiscal year 2012. 
While we understand the focus on reducing Federal spending, we believe 
there should be room for careful decisionmaking within the budget to 
achieve macro-level cuts and at the same time ensure adequate funding 
for specific accounts that are vital and have previously been 
underfunded.
    Your leadership is making a great difference in helping to protect 
the welfare of millions of animals across the country. As you know, 
better enforcement also benefits people by decreasing:
  --food safety risks to consumers from sick animals who can transmit 
        illness, and injuries to slaughterhouse workers from suffering 
        animals;
  --orchestrated dogfights and cockfights that often involve illegal 
        gambling, drug trafficking, and human violence, and can 
        contribute to the spread of costly illnesses such as bird flu;
  --sale of unhealthy pets by commercial breeders, commonly referred to 
        as ``puppy mills'';
  --laboratory conditions that may impair the scientific integrity of 
        animal-based research;
  --risks of disease transmission from, and dangerous encounters with, 
        wild animals in public exhibition; and
  --injuries and deaths of pets on commercial airline flights due to 
        mishandling and exposure to adverse environmental conditions.
    In order to continue the important work made possible by the 
subcommittee's prior support, we request the following for fiscal year 
2012.

  FOOD SAFETY AND INSPECTION SERVICE/HUMANE METHODS OF SLAUGHTER ACT 
                              ENFORCEMENT

    We request language to ensure strengthened HMSA enforcement. We 
greatly appreciated the subcommittee's inclusion of $2 million in 
fiscal year 2009 to address severe shortfalls in USDA oversight of 
humane handling rules for animals at slaughter facilities, oversight 
that is important not only for animal welfare but also for food safety. 
Effective day-to-day enforcement can prevent abuses like those that 
have previously been documented in undercover investigations, and 
associated food safety risks and costly recalls of meat and egg 
products. While the agency has begun to take steps to strengthen its 
HMSA enforcement, it is imperative that these funds be used in the most 
effective way possible. We understand that nearly all of the $2 million 
was used to hire 23 new inspectors whose responsibilities are not 
focused on humane handling. We, therefore, urge inclusion of language 
directing FSIS to ensure that these 23 inspectors focus their attention 
on overseeing compliance with humane handling rules of live animals as 
they arrive and are offloaded and handled in pens, chutes, and stunning 
areas.

                            HORSE SLAUGHTER

    We request inclusion of the same language barring USDA from the 
expenditure of funds for horse slaughter inspection as the subcommittee 
included in the fiscal year 2010 omnibus. This provision is vital to 
prevent renewed horse slaughter activity in this country.

    ANIMAL AND PLANT HEALTH INSPECTION SERVICE/HORSE PROTECTION ACT 
                              ENFORCEMENT

    We request that you support the President's request of $900,000 for 
strengthened enforcement of the Horse Protection Act (HPA). The 
Congress enacted the HPA in 1970 to make illegal the abusive practice 
of ``soring,'' in which unscrupulous trainers use a variety of methods 
to inflict pain on sensitive areas of Tennessee Walking Horses' hooves 
and legs to exaggerate their high-stepping gait and gain unfair 
competitive advantage at horse shows. For example, caustic chemicals--
such as mustard oil, diesel fuel, and kerosene--are painted on the 
lower front legs of a horse, then the legs are wrapped for days in 
plastic wrap and tight bandages to ``cook'' the chemicals deep into the 
horse's flesh, and then heavy chains are attached to slide up and down 
the horse's sore legs. Additional tactics include inserting foreign 
objects such as metal screws or acrylic between a heavy stacked shoe 
and the horse's hoof; pressure shoeing--cutting a horse's hoof down to 
the sensitive live tissue to cause extreme pain every time the horse 
bears weight on the hoof; and applying painful chemicals such as 
salicylic acid to slough off scarred tissue, in an attempt to disguise 
the sored areas. Though soring has been illegal for 40 years, this 
cruel practice continues unabated by the well-intentioned but seriously 
understaffed APHIS inspection program and the inherent conflicts of 
interest in the industry self-policing system established to supplement 
Federal enforcement. A report released in October 2010 by USDA's OIG 
documents these problems and calls for increased funding to enable the 
agency to more adequately oversee the law. Several horse show industry 
groups, animal protection groups, and the key organization of equine 
veterinarians have also called for funding increases to enable USDA to 
do a better job enforcing this law. To meet the goal of the HPA, Animal 
Care (AC) inspectors must be present at more shows. Exhibitors who sore 
their horses go to great lengths to avoid detection, even fleeing a 
show when USDA inspectors arrive. With current funding, AC is able to 
attend only about 6 percent of the more than 500 Tennessee Walking 
Horse shows held annually. An appropriation at the requested level will 
help provide for additional inspectors, training, security (to address 
threats of violence against inspectors), and advanced detection 
equipment (thermography and gas chromatography/mass spectrometry 
machines).

     ANIMAL AND PLANT HEALTH INSPECTION SERVICE/ANIMAL WELFARE ACT 
                              ENFORCEMENT

    We request that you support the President's request of $28,587,000 
for Animal Welfare Act (AWA) enforcement under APHIS. We commend the 
subcommittee for responding in recent years to the urgent need for 
increased funding for the AC division to improve its inspections of 
approximately 12,000 sites, including commercial breeding facilities, 
laboratories, zoos, circuses, and airlines, to ensure compliance with 
AWA standards. In May 2010, USDA's OIG released a report criticizing 
the agency's history of lax oversight of dog dealers--finding that 
inhumane treatment and horrible conditions often failed to be properly 
documented and yielded little to no enforcement actions--prompting 
Agriculture Secretary Vilsack to call for more inspections and a 
tougher stance on repeat offenders. USDA is also moving forward on 
regulations to implement a new responsibility created by the Congress 
in 2008--enforcing a ban on imports from foreign puppy mills where 
puppies are mass produced under inhumane conditions and forced to 
endure harsh long-distance transport. AC currently has 130 inspectors 
(with nine vacancies), compared to 64 inspectors at the end of the 
1990s. An appropriation at the requested level would allow the agency 
to continue to address the concerns identified by the OIG, enforce the 
new puppy import ban, and provide adequate oversight of the many 
licensed/registered facilities.

     ANIMAL AND PLANT HEALTH INSPECTION SERVICE/INVESTIGATIVE AND 
                          ENFORCEMENT SERVICES

    We request that you support the President's request of $17,275,000 
for APHIS-Investigative and Enforcement Services. We appreciate the 
subcommittee's consistent support for this division, which handles many 
important responsibilities, including the investigation of alleged 
violations of Federal animal welfare laws and the initiation of 
appropriate enforcement actions. The volume of animal welfare cases is 
rising significantly, and an appropriation at the requested level would 
enable the agency to keep pace with the additional enforcement 
workload.

        OFFICE OF INSPECTOR GENERAL/ANIMAL FIGHTING ENFORCEMENT

    We request that you support the President's request of $90,700,000 
for OIG to maintain staff, improve effectiveness, and allow 
investigations in various areas, including enforcement of animal 
fighting laws. We appreciate the subcommittee's inclusion of funding 
and language in recent years for USDA's OIG to focus on animal fighting 
cases. The Congress first prohibited most interstate and foreign 
commerce of animals for fighting in 1976, tightened loopholes in the 
law in 2002, established felony penalties in 2007, and further 
strengthened the law as part of the 2008 farm bill. We are pleased that 
USDA is taking seriously its responsibility to enforce this law, 
working with State and local agencies to complement their efforts and 
address these barbaric practices, in which animals are drugged to 
heighten their aggression and forced to keep fighting even after 
they've suffered grievous injuries. Dogs bred and trained to fight 
endanger public safety, and some dogfighters steal pets to use as bait 
for training their dogs. Cockfighting was linked to an outbreak of 
exotic Newcastle disease in 2002-2003 that cost taxpayers more than 
$200 million to contain. It's also been linked to the death of a number 
of people in Asia reportedly exposed through cockfighting activity to 
bird flu. Given the potential for further costly disease transmission, 
as well as the animal cruelty involved, we believe it is a sound 
investment for the Federal Government to increase its efforts to combat 
illegal animal fighting activity. We also support the OIG's auditing 
and investigative work to improve compliance with AWA, HPA, HMSA, and 
downed animal rules.

  NATIONAL INSTITUTE OF FOOD AND AGRICULTURE/VETERINARY STUDENT LOAN 
                              FORGIVENESS

    We request that you support the President's request of $4.8 million 
to continue the implementation of the National Veterinary Medical 
Service Act (Public Law 108-161). This program received $2.95 million 
in fiscal year 2009, $4.8 million in fiscal year 2010, and was 
projected to need $5 million in its third year under the Congressional 
Budget Office score accompanying authorization. We appreciate that the 
Congress is working to address the critical shortage of veterinarians 
practicing in rural and inner-city areas, as well as in Government 
positions at FSIS and APHIS. A 2009 Government Accountability Office 
report enumerating the challenges facing veterinary medicine identified 
that an inadequate number of veterinarians to meet national needs is 
among the foremost challenges. A 2006 study demonstrated the acute and 
worsening shortage of veterinarians working in rural farm animal 
practice, while domestic pets in both rural and urban areas are often 
left without necessary medical care. Having adequate veterinary care is 
a core animal welfare concern. To ensure adequate oversight of humane 
handling and food safety rules, FSIS must be able to fill vacancies in 
inspector positions. Veterinarians also support our Nation's defense 
against bioterrorism (the Centers for Disease Control estimate that 75 
percent of potential bioterrorism agents are zoonotic--transmitted from 
animals to human). They are also on the front lines addressing public 
health problems such as those associated with pet overpopulation, 
parasites, rabies, chronic wasting disease, and bovine spongiform 
encephalopathy (``mad cow'' disease). Veterinary school graduates face 
a crushing debt burden of $134,000 on average, with an average starting 
salary of $68,000. For those who choose employment in underserved rural 
or inner-city areas or public health practice, the National Veterinary 
Medical Service Act authorizes the Secretary of Agriculture to forgive 
student debt. It also authorizes financial assistance for those who 
provide services during Federal emergency situations such as disease 
outbreaks.

    ANIMAL AND PLANT HEALTH INSPECTION SERVICE/EMERGENCY MANAGEMENT 
                 SYSTEMS/DISASTER PLANNING FOR ANIMALS

    We request that you support the President's request of $1,017,000 
for AC under APHIS' Emergency Management Systems line item. Hurricanes 
Katrina and Rita demonstrated that many people refuse to evacuate if 
they are forced to leave their pets behind. The AC division develops 
infrastructure to help prepare for and respond to animal issues in a 
disaster and incorporate lessons learned from previous disasters. These 
funds are used for staff time and resources to support State and local 
governments' and humane organizations' efforts to plan for protection 
of people with animals, and to enable the agency to participate, in 
partnership with the Federal Emergency Management Agency, in the 
National Response Plan without jeopardizing other AC programs.

      ANIMAL AND PLANT HEALTH INSPECTION SERVICE/WILDLIFE SERVICES

    We also hope the subcommittee will consider a funding limitation on 
two particularly cruel, indiscriminate wildlife control methods used by 
the Wildlife Services (WS) division to kill more than 13,000 animals 
every year: the toxicants sodium cyanide (delivered via small explosive 
devices known as M-44s) and sodium fluoroacetate (commonly known as 
compound 1080). Not only are these two substances undeniably cruel to 
animals, they also pose an unnecessary threat to human health and 
public safety. The Federal Bureau of Investigation (FBI) has declared 
that both compound 1080 and sodium cyanide are ``highly toxic 
pesticides judged most likely to be used by terrorists or for malicious 
intent.'' The FBI and the Canadian Security Intelligence Service have 
listed compound 1080 as a substance that may be sought for use as a 
possible chemical warfare agent in public water supplies. As early as 
1999, the Air Force identified compound 1080 as a likely biological 
agent. A funding limitation on the use of these particular methods 
would not only reduce the number of animals killed every year and the 
amount of suffering animals endure as a result of the continued use of 
these inhumane methods by WS, it would help protect homeland security 
and move WS toward nonlethal wildlife control methods that are safer, 
more effective, less expensive, and more humane. With the most 
indefensible methods eliminated, WS can focus on its other, more 
beneficial programs.

                   ANIMAL WELFARE INFORMATION CENTER

    We request $1,978,400 for the Animal Welfare Information Center 
(AWIC). These funds will enable AWIC to improve its services as a 
clearinghouse, training center, and educational resource to help 
institutions using animals in research, testing, and teaching comply 
with the requirements of AWA, including consideration of alternatives 
to minimize or eliminate animal use in specific research protocols.

                                CLOSING

    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, Food and Drug 
Administration, and Related Agencies Appropriation Act of fiscal year 
2012. We are so grateful for the subcommittee's past support, and hope 
you will be able to accommodate these modest requests to address some 
very pressing problems affecting millions of animals in the United 
States. Thank you for your consideration.
                                 ______
                                 
 Prepared Statement of The Humane Society of the United States--Equine 
                               Protection

    On behalf of the undersigned animal welfare and horse industry 
organizations (HIOs), with combined supporters exceeding 12 million, 
and former Senator Joseph Tydings, we submit the following testimony 
seeking an increase in funding for the U.S. Department of Agriculture 
(USDA)/Animal and Plant Health Inspection Service (APHIS) Horse 
Protection Program to $900,000, as requested in the President's budget 
for fiscal year 2012. We recognize that the Congress is focused on the 
imperative of cutting Federal spending. But we believe that it should 
be possible to achieve meaningful reductions in the overall budget 
while still addressing shortfalls in very specific accounts that are 
vital and have been seriously underfunded. This $900,000 is urgently 
needed to begin to fulfill the intent of the Horse Protection Act 
(HPA)--to eliminate the cruel practice of soring--by allowing the USDA 
to strengthen its enforcement capabilities for this law.
    In 1970, the Congress passed HPA to end soring, the intentional 
infliction of pain to the hooves and legs of a horse to produce an 
exaggerated gait, practiced primarily in the Tennessee Walking Horse 
show industry.
    For example, caustic chemicals--such as mustard oil, diesel fuel, 
and kerosene--are painted on the lower front legs of a horse, then the 
legs are wrapped for days in plastic wrap and bandages to ``cook'' the 
chemicals deep into the horse's flesh. This makes the horse's legs 
extremely painful and sensitive, and when ridden, the horse is fitted 
with chains that slide up and down the horse's sore legs, forcing him 
to produce an exaggerated, high-stepping gait in the show ring. 
Additional tactics include inserting foreign objects such as metal 
screws or hard acrylic between a heavy stacked shoe and the horse's 
hoof; pressure shoeing--cutting a horse's hoof down to the sensitive 
live tissue to cause extreme pain every time the horse bears weight on 
the hoof; and applying painful chemicals such as salicylic acid to 
slough off scarred tissue, in an attempt to remove evidence of soring.
    HPA authorizes the USDA to inspect Tennessee Walking Horses and 
Racking Horses--in transport to and at shows, exhibits, auctions and 
sales--for signs of soring, and to pursue penalties against violators. 
Unfortunately, since its inception, enforcement of the act has been 
plagued by underfunding. As a result, the USDA has never been able to 
adequately enforce the act, allowing this extreme and deliberate 
cruelty to persist on a widespread basis.
    The most effective way to eliminate soring and meet the goals of 
the act is for USDA officials to be present at more shows. However, 
limited funds allow USDA attendance at only about 6 percent of 
Tennessee Walking Horse shows. So the agency set up an industry-run 
system of certified HIO inspection programs, which are charged with 
inspecting horses for signs of soring at the majority of shows. These 
groups license examiners known as designated qualified persons (DQPs) 
to conduct inspections. To perform this function, some of these 
organizations hire industry insiders who have an obvious stake in 
preserving the status quo. Statistics clearly show that when USDA 
inspectors are in attendance to oversee shows affiliated with these 
organizations, the numbers of noted violations are many times higher 
than at shows where industry inspectors alone are conducting the 
inspections. By all measures, the overall DQP program as a whole has 
been a failure--the only remedy is to abolish the conflicted industry-
run inspection programs charged with self-regulation and give USDA the 
resources it needs to adequately enforce the act.
    USDA appears to have attempted to step up its enforcement efforts 
in recent years, as evidenced in 2009 by a more than twofold increase 
over the previous year in the number of violations cited at the 
industry's largest show (the Tennessee Walking Horse National 
Celebration). However, horses identified at shows as having been sored 
also continue to be shown in subsequent events, and their owners 
continue to win lucrative prizes. USDA needs enhanced resources to 
carry out its responsibilities as the Congress, and the public, 
expects.
    Lack of a consistent presence by USDA officials at events featuring 
Tennessee Walking Horses, Racking Horses, Spotted Saddle Horses, and 
other related breeds has fostered a cavalier attitude among industry 
insiders, who have not stopped their abuse, but have only become more 
clandestine in their soring methods. The continued use of soring to 
gain an advantage in the show ring has tainted the gaited horse 
industry as a whole, and creates an unfair advantage for those who are 
willing to break the law in pursuit of victory. Besides the 
indefensible suffering of the animals themselves, the continued 
acceptance of sored horses in the show ring prevents those with sound 
horses from competing fairly for prizes, breeding fees, and other 
financial incentives, while those horse owners whose horses are sored 
may unwittingly suffer property damage and be duped into believing that 
their now abused, damaged horses are naturally superior.
    Currently, when USDA inspectors arrive at shows affiliated with 
some industry organizations, many of the exhibitors load up and leave 
to avoid being caught with sored horses. While USDA could stop these 
trailers on the way out, agency officials have stated that inspectors 
are wary of going outside of their designated inspection area, for fear 
of harassment and physical violence from exhibitors. Recently, armed 
security has been utilized to allow such inspections, at additional 
expense to this program. The fact that exhibitors feel they can 
intimidate Government officials without penalty is a testament to the 
inherent shortcomings of the current system.
    In years past, inspections were limited to physical observation and 
palpation by the inspector. New technologies, such as thermography and 
``sniffer'' devices (gas chromatography/mass spectrometry machines), 
have been developed, which can help inspectors identify soring more 
effectively and objectively. However, USDA has been unable to purchase 
and put enough of this equipment in use in the field, allowing for 
industry insiders to continually evade detection. With increased 
funding, the USDA could purchase this equipment and hire and train more 
inspectors to use it properly, greatly increasing its ability to 
enforce HPA.
    The egregious cruelty of soring is not only a concern for animal 
protection and HIOs, but also for veterinarians. In 2008, the American 
Association of Equine Practitioners (AAEP) issued a white paper 
condemning soring, calling it ``one of the most significant welfare 
issues faced by the equine industry.'' It called for the abolition of 
the DQP Program, saying ``the acknowledged conflicts of interest which 
involve many of them cannot be reasonably resolved, and these 
individuals should be excluded from the regulatory process.'' The AAEP 
further stated, ``The failure of the HPA to eliminate the practice of 
soring can be traced to the woefully inadequate annual budget of 
$500,000 allocated to the USDA to enforce these rules and 
regulations.''
    The USDA Office of Inspector General recently conducted an audit of 
the Horse Protection Program, and issued its final report in September 
of 2010. The report recommends the abolition of the DQP program, and an 
increase in funding for APHIS enforcement of HPA. The agency concurred 
with the findings and recommendations in the report, specifically 
recommendation 2: ``Seeking the necessary funding from Congress to 
adequately oversee the Horse Protection Program'', indicating that it 
requested a $400,000 increase in funding for fiscal year 2011 and that 
it will develop a budgeting and staffing plan to phase in the resources 
needed to adequately oversee the Horse Protection Program.
    It is unacceptable that nearly 40 years after passage of HPA, the 
USDA still lacks the resources needed to end this extreme form of 
abuse. It is time for the Congress to give our public servants charged 
with enforcing this act the support and resources they want and need to 
fulfill their duty to protect these horses as effectively and safely as 
possible.
    We appreciate the opportunity to share our views about this serious 
problem, and thank you for your consideration of our request.
            Sincerely,
Keith Dane, Director of Equine Protection, The Humane Society of the 
United States.
Former U.S. Senator Joseph Tydings, Original Sponsor of the Horse 
Protection Act.
Lori Northrup, President, Friends of Sound Horses, Inc.
Chris Heyde, Deputy Director, Government and Legal Affairs, Animal 
Welfare Institute.
Betsy Dribben, Vice President for Government Relations, American 
Society for the Prevention of Cruelty to Animals (ASPCA).
Robin Lohnes, Executive Director, American Horse Protection 
Association.
Shelley Sawhook, President, American Horse Defense Fund.
Louise Semancik, Plantation Walking Horses of Maryland.
Karen Brown, Director of Programs, United Animal Nations.
Karen Ayres, President, National Plantation Walking Horse Association.
Susan Crotty, President, Plantation Walking Horse Association of 
California.
Joyce Guillemot, President, United Pleasure Walking Horse Association.
Gina Vehige, Gaitway Walking Horse Association.
Steve Bucher, President, Mid Atlantic Tennessee Walking Horse 
Association.
Bonnie Yeager, President, International Pleasure Walking Horse 
Registry.
Sharon Halpin, Sound Horse Outreach (SHO).
Penny Austin, President, One Horse At a Time, Inc. Horse Rescue.
Fran Cole, President, Northern California Walking Horse Association.
Bob Kuykendall, Tennessee Walking Horse Association of Oklahoma.
Cris Van Horn, President, Pure Pleasure Gaited Horse Association.
Rick Brighton, President, Northwest Gaited Horse Club.
Walter Farnholtz, President, New York State Plantation Walking Horse 
Club.
Michele McGuire, Northwest Pleasure Tennessee Walking Horse 
Association.
                                 ______
                                 
               Prepared Statement of The Wildlife Society

    The Wildlife Society (TWS) appreciates the opportunity to submit 
testimony concerning fiscal year 2012 budgets for the Animal and Plant 
Health Inspection Service (APHIS), National Institute of Food and 
Agriculture (NIFA), and Natural Resources Conservation Service (NRCS). 
TWS represents more than 10,000 professional wildlife biologists and 
managers dedicated to sound wildlife stewardship through science and 
education. TWS is committed to strengthening all Federal programs that 
benefit wildlife and their habitats on agricultural and other private 
land.

               ANIMAL AND PLANT HEALTH INSPECTION SERVICE

    Wildlife Services, a unit of APHIS, is responsible for controlling 
wildlife damage to agriculture, aquaculture, forest, range, and other 
natural resources, monitoring wildlife-borne diseases, and managing 
wildlife at airports. Its activities are based on the principles of 
wildlife management and integrated damage management, and are carried 
out cooperatively with State fish and wildlife agencies. The 
administration's request this year is a $10.36 million decrease from 
fiscal year 2010. Such a significant decrease substantially reduces 
funding for State and Federal cooperative wildlife damage programs 
across the country; just a few of the programs affected would be Hawaii 
Wildlife Operations, Mississippi Beaver Management, Montana, Idaho, and 
Wyoming Predator Management, and Pennsylvania Cooperative Livestock 
Protection. Funding cuts for these programs will result not only in 
significant ecological damage, but threaten local economies as well. 
TWS recommends the Congress increase the appropriation for Wildlife 
Services operations to $77.78 million. This amount would continue to 
provide support for ongoing programs funded through the direct 
appropriations process, as well as fund necessary safety improvements 
and cover the programmed pay costs for operations.
    Another key budget line in Wildlife Service's operations is methods 
development, which funds the National Wildlife Research Center (NWRC). 
Much of the newest research critical to State wildlife agencies is 
being performed at NWRC. In order for State wildlife management 
programs to be the most up-to-date, the work of the NWRC must continue. 
The President's request is currently a $10.36 million decrease from 
fiscal year 2010 enacted levels. Ultimately, this decrease in funding 
will eliminate or severely impact programs conducting research on 
human-wildlife conflict (Jack Berryman Institute), invasive species and 
seed crops (Hilo Hawaii Field Station), and wildlife disease 
(Kingsville Texas Field Station). Such a loss could be devastating, as 
human and wildlife issues are becoming increasingly intertwined. TWS 
requests that the Congress restore $3.9 million to the methods 
development line, including $1,243,892 to the methods development base; 
$904,428 for the Hilo, Hawaii Field Station; $290,000 for the NWRC 
Kingsville, Texas Field Station; and $1.5 million for the Logan, Utah 
Berryman Institute.
    Finally, TWS recommends providing $22.6 million to veterinary 
services for addressing the import and export of invasive species. The 
potential import of exotic disease and parasite vectors into the United 
States is a grave threat to human, wildlife, and habitat health, and 
has been shown to cause incalculable economic damage. To mitigate this 
impact, it is essential that APHIS-Veterinary Services have the 
capacity to conduct inspections at all U.S. ports. The historic method 
of relying on import or user fees has proven to be inadequate at 
preventing importation of previously unknown parasites and diseases. 
Also, with the continuing spread of wildlife diseases worldwide, 
growing number of exotic species importations, and increasing ports of 
entry, the resources available to conduct inspections are stretched 
even further.

               NATIONAL INSTITUTE OF FOOD AND AGRICULTURE

    The Renewable Resources Extension Act (RREA) provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of 4 to 1, with a focus on private landowners. The need for RREA 
educational programs is greater than ever because of continuing 
fragmentation of ownership, urbanization, diversity of landowners 
needing assistance, and increasing societal concerns about land use and 
increasing human impacts on natural resources TWS recommends that RREA 
be funded at $10 million.
    The McIntire-Stennis Cooperative Forestry Program is essential to 
the future of resource management on nonindustrial private forestlands 
while conserving natural resources, including fish and wildlife. As 
nationwide demand for forest products grow, privately held forests will 
be increasingly needed to supplement supplies obtained from national 
forest lands. However, commercial trees take many decades to produce. 
In the absence of long research, such as that provided through 
McIntire-Stennis, the Nation might not be able to meet future forest-
product needs as resources are harvested. We appreciate the more than 
$29 million in funding allocated in the fiscal year 2010 appropriations 
and urge that amount to be continued in fiscal year 2012.

                 NATURAL RESOURCES CONSERVATION SERVICE

    Food, Conservation, and Energy Act of 2008 (2008 farm bill) 
conservation programs are more important than ever, given the huge 
backlog of qualified applicants, increased pressure on farmland from 
biofuels development, urban sprawl, and the concurrent declines in 
wildlife habitat and water quality. NRCS, which administers many farm 
bill conservation programs, is one of the primary Federal agencies 
ensuring our public and private lands are made resilient to climate 
change. NRCS does this through a variety of programs that are aimed at 
conserving land, protecting water resources, and mitigating effects of 
climate change.
    One key program within the overall NRCS discretionary budget is 
conservation operations. The total fiscal year 2012 request for 
conservation operations is $899 million, an 11-percent decrease 
compared to the fiscal year 2011 estimated level of $1.010 million. 
Conservation operations' activities consists of five subactivities:
  --technical assistance (TA);
  --grazing lands;
  --soil surveys;
  --snow surveys; and
  --plant materials.
    TA subactivity provides funding for NRCS to support implementation 
of the various farm bill programs. The fiscal year 2012 budget 
recommends an increase of $10 million (1 percent) more than the fiscal 
year 2011 estimated level for TA, and TWS supports this increase. We 
also support the $11.3 million increase for NRCS' Conservation Delivery 
Streamlining Initiative that promises to increase staff efficiencies 
and allow more time for actual in-the-field conservation planning.
    However, TWS believes more attention to TA delivery is needed. 
Changes in the 2008 farm bill greatly increased the number of 
conservation programs NRCS was required to support through delivery of 
TA. In addition, the Congress expanded TA eligible activities in the 
2008 farm bill to include conservation planning, education and 
outreach, assistance with design and implementation of conservation 
practices, and related TA services that accelerate conservation program 
delivery. TA will require funding levels from Office of Management and 
Budget (OMB) that are more than what was historically allocated if NRCS 
is to fulfill congressional intent as intended in the 2008 farm bill. 
Recently, the Congress allowed the use of mandatory funds for TA and, 
under current economic conditions; TWS believes that such funds must 
continue to be utilized for effective delivery to occur. TWS urges the 
Congress to authorize up to 30 percent of each mandatory program's 
funding for technical service provider provisions as mandated by the 
2008 farm bill and additional technical assistance to provide resources 
necessary to help meet NRCS TA shortfalls. Similarly, we strongly 
encourage the Congress to explore new ways of funding technical 
assistance in fiscal year 2012 and beyond. TWS also supports the $7 
million requested for the Conservation Effects Assessment Project. 
Information gathered from this effort will greatly assist in monitoring 
accomplishments and identifying ways to further enhance effectiveness 
of NRCS programs.
    TWS recommends farm bill conservation programs be funded at levels 
mandated in the 2008 farm bill. The administration's current budget 
request will result in collective program reductions for the Wildlife 
Habitat Incentive Program (WHIP), the Environmental Quality Incentives 
Program (EQIP), and the Grassland Reserve Program (GRP) of $22 million 
less than authorized levels. TWS encourages the Congress to restore 
funding for all conservation programs at authorized levels. Demand for 
these programs continues to grow during this difficult economic climate 
at a time when greater assistance is needed to address natural resource 
challenges and conservation goals, including climate change, soil 
quality deficiencies, declining pollinator health, disease, and 
invasive species, water quality and quantity issues, and degraded, 
fragmented and lost habitat for fish and wildlife. We would also like 
to specifically highlight WHIP, a voluntary program for landowners who 
want to improve wildlife habitat on agricultural, nonindustrial, and 
Indian land. WHIP plays an important role in protecting and restoring 
America's environment, and is doubly important because it actively 
engages public participation in conservation. We urge the Congress to 
fully fund WHIP at $85 million.

                      FARM SERVICES ADMINISTRATION

    The administration increased funding for the Conservation Reserve 
Program (CRP) by $145 million versus fiscal year 2011 requested. 
However, this increase assumes a CRP enrollment of 4 million acres in 
spring of fiscal year 2011. TWS applauds Farm Services Administration 
(FSA) efforts to have a 4-million-acre general sign-up in 2011, and to 
more fully utilize CRP enrollment authority to address conservation 
needs. Lands enrolled in CRP are important to conserve soil on some of 
the Nation's most erodible cropland. These lands also contribute to 
water quantity and quality, provide habitat for wildlife that reside on 
agricultural landscapes, sequester carbon, and provide a strategic 
forage reserve that can be tapped as a periodic compatible use in times 
when other livestock forage is limited due to drought or other natural 
disasters. It will be important for FSA to hold another general sign-up 
in 2012 due to expiration of 6.6 million acres of CRP contracts on 
September 30, 2012. A sign-up in advance of the date of expiration 
would provide CRP contract holders the opportunity to compete for re-
enrollment and allow time for them to make management decisions 
regarding their land. We strongly encourage the Congress to fund CRP at 
a level that fully utilizes program enrollment authority through CRP 
general sign-up. CRP initiatives including the Upland Bird Habitat 
Initiative (CP33), Duck Nesting Habitat Restoration (CP37), the 
Longleaf Pine Initiative (CP36), State Acres for Wildlife Enhancement 
(SAFE), and Western States Shrub-steppe Conservation Initiative require 
special incentives for enrollment. We are pleased with and support the 
general sign-up and target enrollment of 4 million acres FSA included 
in the fiscal year 2011 budget. CRP provides farmers with supplemental 
income and helps them manage their farming operations. Enrolled lands 
also provide an important source of fish and wildlife habitat and help 
achieve soil and water conservation goals.
    The Voluntary Public Access and Habitat Incentives Program was 
first authorized in the 2008 farm bill. With an authorization of $50 
million from fiscal year 2008-2012, the administration proposed funding 
of the program for the first time at $16.67 million in fiscal year 
2010. While this level of funding was enacted, none of the funds were 
spent that year due to implementation delays. TWS commends the 
administration for continuing to fund this program in fiscal year 2011 
at the planned $33 million level. These funds will assist State and 
tribal governments with needed resources to provide the public with 
additional outdoor opportunities. In addition, increased public access 
opportunities will help create jobs and stimulate rural economies. 
Continuity of program funding is critical to these programs that rely 
on landowner interest across multiple years. It is important that the 
remaining $17 million in authorized program funding be provided in 
fiscal year 2012 as the administration has requested.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.
                                 ______
                                 
                  Letter From the USA Rice Federation
                                                    March 31, 2011.
Hon. Herb Kohl, 
Chairman, Subcommittee on Agriculture, Rural Development, Food and Drug 
        Administration, and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC.
Hon. Roy Blunt, 
Ranking Member, Subcommittee on Agriculture, Rural Development, Food 
        and Drug Administration, and Related Agencies, Committee on 
        Appropriations, U.S. Senate, Washington, DC.

Re: USA Rice Federation's Fiscal Year 2012 Agriculture Appropriations 
        Requests
    Dear Chairman Kohl and Senator Blunt: This is to convey the rice 
industry's requests for fiscal year 2012 funding for selected programs 
under the jurisdiction of your subcommittee. The USA Rice Federation 
appreciates your assistance in making this letter a part of the hearing 
record.
    The USA Rice Federation is the global advocate for all segments of 
the U.S. rice industry with a mission to promote and protect the 
interests of producers, millers, merchants, and allied businesses. USA 
Rice members are active in all major rice-producing States: Arkansas, 
California, Florida, Louisiana, Mississippi, Missouri, and Texas. The 
USA Rice Producers' Group, the USA Rice Council, the USA Rice Millers' 
Association, and the USA Rice Merchants' Association are members of the 
USA Rice Federation. U.S. rice production supported 128,000 jobs and 
more than $34 billion of economic output nationally in 2009.
    USA Rice understands the budget constraints the subcommittee faces 
when developing the fiscal year 2012 appropriations bill. We appreciate 
your past support for initiatives that are critical to the rice 
industry and look forward to working with you to meet the continued 
needs of research, food aid, and market development in the future.
    A healthy U.S. rice industry is also dependent on the program 
benefits offered by the farm bill. Therefore, we oppose any attempts to 
modify the farm-safety-net support levels provided by this vital 
legislation through more restrictive payment limitations or other means 
and encourage the subcommittee and Committee to resist such efforts 
during the appropriations process, especially given that the 2008 farm 
bill will be debated and reauthorized next year, is paid for, and 
represents a 5-year contract with America's producers. USA Rice 
strongly opposes reducing the farm-safety net to appropriate funds for 
other Federal programs.
    A list of the programs the USA Rice Federation supports for 
appropriations in fiscal year 2012 are as follows.

                             MARKET ACCESS

    Exports are critical to the U.S. rice industry. About 50 percent of 
the U.S. crop is exported annually in a highly competitive world-rice 
market. Those directly involved in U.S. rice exports contributed $6 
billion in output and supported more than 14,000 jobs. The Market 
Access Program (MAP) and Foreign Market Development (FMD) Program play 
key roles in helping to promote U.S. rice sales overseas. USA Rice 
Federation industry members spend more than $3 in matching funds for 
each $1 of Foreign Agricultural Service (FAS) funds received. The USA 
Rice Federation uses MAP and FMD funding in more than 25 markets to 
conduct successful export-market-development initiatives.
    The FMD Program allows USA Rice to focus on importer, foodservice, 
and other nonretail promotion activities around the world. This program 
should be fully funded for fiscal year 2012 at the authorized level of 
$34.5 million.
    The MAP allows USA Rice to concentrate on consumer promotion and 
other activities for market expansion around the world. This program 
should also be fully funded for fiscal year 2012 at the authorized 
level of $200 million.
    In addition, the FAS should be funded to the fullest degree 
possible to ensure adequate support for trade-policy initiatives and 
oversight of export programs. These programs are critical for the 
economic health of the U.S. rice industry.

                                FOOD AID

    We urge the subcommittee to fund Public Law 480 title I. No title I 
funding has been provided since fiscal year 2006. At a minimum, fiscal 
year 2012 funding should be the same as 2006. Public Law 480 title I is 
our top food-aid priority and we support continued funding in order to 
meet international demand. Food-aid sales historically account for an 
important portion of U.S. rice exports.
    For Public Law 480 title II, we strongly support funding title II 
up front at the fully authorized $2.5 billion level, which would help 
to make possible satisfying the 2.5 million MT amount required by 
statute. We encourage the subcommittee to fund title II at the higher 
level to ensure consistent tonnage amounts for the rice industry. We 
strongly oppose any shifting of title II funds, which have 
traditionally been contained within USDA's budget.
    We believe all food-aid funds should continue to be used for food-
aid purchases of rice and other commodities from only U.S. origin.
    USA Rice supports continued funding at fiscal year 2006 levels, at 
a minimum, for the Food for Progress Program's Public Law 480 title I-
sourced funding. For the program's Commodity Credit Corporation funding 
component, USDA's fiscal year 2012 budget estimate of $156 million is 
requested. Funding for this program is important to improve food 
security for food-deficit nations.
    The McGovern-Dole International Food for Education and Child 
Nutrition Program is a proven success and it is important to provide 
steady, reliable funding for multi-year programming. USA Rice supports 
funding at the $300 million level for this education initiative because 
it efficiently delivers food to its targeted group, children, while 
also encouraging education, a primary stepping-stone for populations to 
improve economic conditions.

                                RESEARCH

    U.S. agricultural research needs are great and the challenges are 
plentiful. USA Rice supports funding for the core capacity programs at 
land-grant institutions, USDA's intramural-research activities, and the 
National Institute of Food and Agriculture and its Agriculture and Food 
Research Initiative at levels that would continue the commitment to 
strong agricultural research by and through USDA.

  FARM SERVICE AGENCY, RISK MANAGEMENT AGENCY, AND NATURAL RESOURCES 
                          CONSERVATION SERVICE

    We encourage the subcommittee to provide adequate funding so the 
agencies can deliver essential programs and services, including for 
improved computer hardware and software. Our members fear a serious 
reduction in service if sufficient funds are not allocated.
    Please feel free to contact us if you would like further 
information about the programs we have listed. Additional background 
information is available for all of the programs we have referenced; 
however, we understand the volume of requests the subcommittee receives 
and have restricted our comments accordingly.
    Thank you for your consideration of our recommendations.
            Sincerely,
                                             Reece Langley,
                                Vice President, Government Affairs.

</pre></body></html>
